<html>
<title> - THE VIEWS OF THE INDEPENDENT AGENCIES ON REGULATORY REFORM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
       THE VIEWS OF THE INDEPENDENT AGENCIES ON REGULATORY REFORM 

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 7, 2011

                               __________

                           Serial No. 112-71


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

72-377 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































                    COMMITTEE ON ENERGY AND COMMERCE

                         FRED UPTON, Michigan
                               Chairman
JOE BARTON, Texas                   HENRY A. WAXMAN, California
  Chairman Emeritus                   Ranking Member
CLIFF STEARNS, Florida              JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky              EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois              EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania       FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California          BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                 ANNA G. ESHOO, California
LEE TERRY, Nebraska                 ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan               GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina  DIANA DeGETTE, Colorado
  Vice Chairman                     LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma             MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania            JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas           CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee         JAY INSLEE, Washington
BRIAN P. BILBRAY, California        TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire      MIKE ROSS, Arkansas
PHIL GINGREY, Georgia               JIM MATHESON, Utah
STEVE SCALISE, Louisiana            G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio               JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington  DORIS O. MATSUI, California
GREGG HARPER, Mississippi           DONNA M. CHRISTENSEN, Virgin 
EONARD LANCE, New Jersey              Islands
BILL CASSIDY, Louisiana             KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky
PETE OLSON, Texas
DAVID McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia  

                                  (ii)
              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma                Ranking Member
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            MIKE ROSS, Arkansas
MARSHA BLACKBURN, Tennessee          KATHY CASTOR, Florida
SUE WILKINS MYRICK, North Carolina   EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)



























  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the state 
  of Florida, opening statement..................................     1
    Prepared statement...........................................     3
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     4
    Prepared statement...........................................     5
Hon. Lee Terry, a Representative in Congress from the state of 
  Nebraska, opening statement....................................     6
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     8
    Prepared statement...........................................     9
Hon. Fred Upton, a Representative in Congress from the state of 
  Michigan, prepared statement...................................    10
Hon. Sue Wilkins Myrick, a Representative in Congress from the 
  state of North Carolina, prepared statement....................    11

                               Witnesses

Robert S. Adler, Commissioner, Consumer Product Safety Commission    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................   244
Anne Northup, Commissioner, Consumer Product Safety Commission...    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   247
Robert McDowell, Commissioner, Federal Communications Commission.    54
    Prepared statement...........................................    56
    Answers to submitted questions...............................   264
Jon Wellinghoff, Chairman, Federal Energy Regulatory Commission..    87
    Prepared statement...........................................    88
    Answers to submitted questions...............................   277
Philip D. Moeller, Commissioner, Federal Energy Regulatory 
  Commission.....................................................    97
    Prepared statement...........................................    99
    Answers to submitted questions...............................   277
Jon Leibowitz, Chairman, Federal Trade Commission................   106
    Prepared statement...........................................   110
    Answers to submitted questions...............................   288
William E. Kovacic, Commissioner, Federal Trade Commission.......   106
    Prepared statement...........................................   110
    Answers to submitted questions...............................   295

                           Submitted Material

Memorandum, dated February 2, 2011, from Cass R. Sunstein, 
  Administrator of Office of Information and Regulatory Affairs, 
  submitted by Mr. Stearns.......................................   152
Report, dated July 2011, entitled, ``Evaluation of the Consumer 
  Product Safety Database,'' submitted by Ms. DeGette............   158
Report, dated September 2010, entitled, ``The Impact of 
  Regulatory Costs on Small Firms,'' submitted by Mr. Scalise....   161


       THE VIEWS OF THE INDEPENDENT AGENCIES ON REGULATORY REFORM

                              ----------                              


                         THURSDAY, JULY 7, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Terry, Burgess, 
Blackburn, Bilbray, Scalise, Gardner, Griffith, Barton, 
DeGette, Schakowsky, Castor, Markey, Green, Christensen, and 
Waxman (ex officio).
    Staff present: Allison Busbee, Legislative Clerk; Stacy 
Cline, Counsel, Oversight; Todd Harrison, Chief Counsel, 
Oversight & Investigations; Brian McCullough, Senior 
Professional Staff Member, Commerce, Manufacturing, and Trade; 
Andrew Powaleny, Press Assistant; Alan Slobodin, Deputy Chief 
Counsel, Oversight; Sam Spector, Counsel, Oversight; Kristin 
Amerling, Democratic Chief Counsel and Oversight Staff 
Director; Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; Phil Barnett, Democratic Staff 
Director; Tiffany Benjamin, Democratic Investigative Counsel; 
Jocelyn Gutierrez, DOE Detailee; Karen Lightfoot, Democratic 
Communications Director, and Senior Policy Advisor; Felipe 
Mendoza, Democratic Counsel; Ali Neubauer, Democratic 
Investigator; and Roger Sherman; Democratic Chief Counsel, 
Communications and Technology.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, everybody. The Subcommittee on 
Oversight and Investigation will come to order, and there will 
be an opportunity for each of us to give an opening statement, 
and I shall open with mine.
    President Obama's Executive Order 13563 states that 
agencies must take into account the costs and benefits of 
proposed regulations; use the least burdensome methods to 
achieve regulatory goals; maximize net benefits; and evaluate 
alternatives to direct regulation.
    The Order also requires agencies to conduct periodic 
reviews of significant regulations to determine whether they 
are outmoded, ineffective, insufficient, or excessively 
burdensome. These retrospective reviews have been required for 
more than 30 years, and if conducted as intended, could be a 
crucial tool in reducing the burden of regulation on our 
economy today.
    As chairman of this subcommittee, I have set out to ensure 
that these goals are simply achieved. Regulations cost money, 
and in today's weak economy, we cannot afford such burdens when 
they are totally unnecessary. During our June 3rd hearing, Mr. 
Cass Sunstein of OMB indicated that although independent 
agencies were not bound to comply with the Executive order, he 
believed that they should.
    Unfortunately, none of the independent agencies under the 
committee's jurisdiction have to date complied with the 
Executive order.
    We are holding this hearing today to ask the CPSC, the FCC, 
the FTC and FERC to explain why they did not submit a 
regulatory review plan to Cass Sunstein by May 18th, as they 
were asked to do. While each of these agencies engages in some 
degree of regulatory review, none of them conduct the kind of 
top-to-bottom, regular retrospective review that will help to 
unburden our economy.
    The CPSC, perhaps more than any other agency today, seems 
determined, in our opinion, to pass regulations without even a 
hint of regulatory humility. Commissioner Northup will testify 
that CPSC regulations are estimated to cost industry billions 
of dollars with no cost-benefit analysis done to justify those 
regulations and no analysis done to show improved safety for 
our children. Commissioner Northup has also submitted for the 
record today a list of businesses that have closed their doors 
in part because of CPSC regulations.
    Now, we realize many of the CPSC's most damaging 
regulations are required by the CPSIA, which has had a number 
of unintended consequences. Until Congress can act to reform 
that law, we would hope the CPSC would use its discretion where 
possible to comply with the President of the United States 
Executive order. Where CPSC doesn't have discretion, we would 
hope the CPSC Democrat commissioners would be cooperative in 
helping this committee identify where they need more discretion 
rather than sending last-minute partisan letters meant to 
derail the reform process.
    Meanwhile, Congress asserted deregulatory goals in regard 
to the FTC decades ago, removing its authority to operate under 
the Administrative Procedure Act and instead instituting Mag-
Moss procedures, created under a Democratic Congress to halt 
the agency from further significant rulemaking. Today, the 
agency resorts to rulemaking through orders and guidelines that 
do not undergo a notice and comment process.
    Although FERC does not issue a large number of regulations, 
there is room to improve in its rulemaking and regulatory 
review also. FERC regulations call for broad ranges of data 
sets without a clear indication on how the agency utilizes this 
information. It has not conducted a top-to-bottom review of its 
regulations since the Clinton Administration. And it is unclear 
what, if any, cost-benefit analysis is done of the impact its 
policies have on the energy industry and consumers.
    Now, as for the FCC, in drafting both the Communications 
and Telecommunications Acts, Congress emphasized the importance 
of deregulation. The FCC is required to review its 
telecommunications regulations every 2 years and its media 
ownership rules every 4 years. But these reviews fall short of 
what the President and this committee have asked agencies to 
do. They only cover a narrow set of rules at the FCC and the 
commission can't seem to get these reviews done on time, and 
the commission hasn't repealed or modified any significant 
regulations in recent review periods. Perhaps that is because 
the commission is too busy taking conclusion-driven actions, 
such as the Net Neutrality Order and the Chairman's Section 706 
report.
    So my colleagues, I look forward to learning more about 
what each agency will do to adopt the principles of the 
President's Executive order. I hope the format of this hearing 
gives you all the opportunity to learn about what other 
agencies are doing to improve these processes.
    [The prepared statement of Mr. Stearns follows:]

                Prepared statement of Hon. Cliff Stearns

    President Obama's Executive Order 13563 states that 
agencies must take into account costs and benefits of proposed 
regulations; use the least burdensome methods to achieve 
regulatory goals; maximize net benefits; and evaluate 
alternatives to direct regulation. The Order also requires 
agencies to conduct periodic reviews of significant regulations 
to determine whether they are outmoded, ineffective, 
insufficient, or excessively burdensome. These retrospective 
reviews have been required for more than 30 years, and if 
conducted as intended, could be a crucial tool in reducing the 
burden of regulation on our economy.
    As Chairman of this Subcommittee I have set out to ensure 
that these goals are achieved. Regulations cost money, and in 
today's economy we cannot afford such burdens when they are 
unnecessary. During our June 3 hearing, Cass Sunstein of OMB 
indicated that although independent agencies were not bound to 
comply with the Executive order, he believed that they should. 
Unfortunately, none of the independent agencies under the 
Committee's jurisdiction have to date complied with the 
Executive order.
    We are holding this hearing today to ask the CPSC, FCC, 
FTC, and FERC to explain why they did not submit a regulatory 
review plan to Cass Sunstein by May 18, as they were asked to 
do. While each of these agencies engages in some degree of 
regulatory review, none of them conduct the kind of top to 
bottom, regular retrospective review that will help to unburden 
our economy.
    The CPSC, perhaps more than any other agency here today, 
seems determined to pass regulations without even a hint of 
regulatory humility. Commissioner Northup will testify that 
CPSC regulations are estimated to cost industry billions of 
dollars with no cost benefit analysis done to justify those 
regulations and no analysis done to show improved safety for 
children. Commissioner Northup has also submitted for the 
record today a list of businesses that have closed their doors 
in part because of CPSC regulations.
    We realize many of the CPSC's most damaging regulations are 
required by the CPSIA, which has had a number of unintended 
consequences. Until Congress can act to reform that law, we 
would hope the CPSC would use its discretion where possible to 
comply with the President's Executive order.
    Where CPSC doesn't have discretion, we would hope the CPSC 
Democrat Commissioners would be cooperative in helping this 
Committee identify where they need more discretion rather than 
sending last minute partisan letters meant to derail the reform 
process.
    Meanwhile, Congress asserted deregulatory goals in regard 
to the FTC decades ago, removing its authority to operate under 
the Administrative Procedure Act and instead instituting Mag-
Moss procedures--created under a Democratic Congress to halt 
the agency from further significant rulemaking. Today, the 
agency resorts to rulemaking through Orders and Guidelines that 
do not undergo a notice and comment process.
    Although FERC does not issue a large number of regulations, 
there is room to improve in its rulemaking and regulatory 
review. FERC regulations call for broad ranges of data sets 
without a clear indication on how the agency utilizes this 
information. It has not conducted a top to bottom review of its 
regulations since the Clinton Administration. And it's unclear 
what (if any) cost-benefit analysis is done of the impact its 
policies have on the energy industry and consumers.
    As for the FCC, in drafting both the Communications and 
Telecommunications Acts, Congress emphasized the importance of 
deregulation. The FCC is required to review its 
telecommunications regulations every two years and its media 
ownership rules every four years. But these reviews fall short 
of what the President and this Committee have asked agencies to 
do. They only cover a narrow set of rules at the FCC. The 
Commission can't seem to get these reviews done on time. And 
the Commission hasn't repealed or modified any significant 
regulations in recent review periods. Perhaps that's because 
the Commission is too busy taking conclusion driven actions, 
such as the Net Neutrality order and the Chairman's Section 706 
report.
    I look forward to learning more about what each agency will 
do to adopt the principles of the President's Executive order. 
I hope the format of this hearing gives you all the opportunity 
to learn about what other agencies are doing to improve their 
processes.

    Mr. Stearns. With that, I yield to the ranking member, Ms. 
DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you so much, Mr. Chairman.
    This is the fourth in a series of hearings examining the 
government's regulatory review process, and I frankly am 
pleased to hear you today embrace the President's Executive 
order that sets forth principles of regulation protecting 
public health, welfare, safety and the environment while at the 
same time promoting economic growth and competitiveness. I 
thought that Cass Sunstein was an excellent witness talking to 
us about how we can all agree on a bipartisan basis that we 
should eliminate unnecessary regulations at the agencies.
    Now, today we have witnesses, and I am happy to welcome all 
of them, particularly our former colleague, Congresswoman 
Northup, and these witnesses represent four important 
independent federal agencies: the Consumer Product Safety 
Commission, the Federal Energy Regulatory Commission, the 
Federal Communications Commission, and the Federal Trade 
Commission. Now, Congress created these agencies as independent 
entities, and so therefore, as you noted, Mr. Chairman, they 
are not covered explicitly by the President's Executive order 
on regulatory review. But it is important, though, for the 
subcommittee and the public to understand whether the 
independent regulatory review processes at these agencies are 
effective and efficient.
    I would like to correct the record. Mr. Sunstein when he 
testified, he said he had urged these independent agencies to 
conduct regulatory review processes but he did not say that 
they should submit reports to him like the agencies under the 
purview of the Executive order, so I was a little confused, Mr. 
Chairman, when you had said that somehow they should submit 
reports because not only are they not required to but Mr. 
Sunstein himself does not believe that these agencies are 
directly subject to the Executive order and that is an order to 
pervert any President, Democrat or Republican, from 
overreaching their authority.
    Now, as we hear from these agencies on their regulatory 
review efforts, I think we need to keep a few thoughts in mind. 
First of all, these agencies were created originally as 
independent entities to insulate them from political influence 
and we have given them decision-making flexibilities that other 
agencies do not have. Secondly, irrespective of the Executive 
order, as I mentioned, there are a number of statutory 
requirements concerning transparency and efficiency in the 
regulatory process that already apply to the independent 
agencies. For example, the Regulatory Flexibility Act requires 
federal agencies, including independent agencies, to analyze 
the impact of their rules on small organizations. The 
Administrative Procedure Act broadly lays out the scheme under 
which agencies propose and finalize regulations, and provides 
for public participation in the rulemaking process.
    Finally, it is important to remember that the underlying 
mission of all of the agencies before us today is to ensure the 
safety and the health of all of our citizens. While we should 
make sure that the regulations they propose are well crafted 
and not overly burdensome, we should also acknowledge the 
importance of the work hey do and the regulations they 
promulgate. For example, this year, the FCC issued a report and 
order to adopt a rule requiring mobile providers to enter data 
roaming arrangements with other providers, allowing consumers 
to remain connected when they travel outside of their 
provider's coverage area. FTC recently established the Do Not 
Call registry, which lets consumers choose whether they want to 
receive calls from telemarketers. This is wildly popular with 
my constituents, by the way. And every day, FERC acts as a 
neutral adjudicatory body handling extremely complicated 
technical issues on the electricity market.
    But I want to talk just in the last minute that I have 
about the recent proposals on the other side of the aisle that 
would undermine the Consumer Product Safety Commission and some 
of the other good work that they have done. Three years ago, 
this committee and this Congress worked hard in a significantly 
bipartisan manner to put meaningful reforms for consumers into 
the Consumer Product Safety Improvement Act. This has yielded 
unbelievable benefits. The CPSC has initiated a wide range of 
recent efforts to protect children from mandatory standards to 
cribs to the problem of dangerous toys to banning certain 
phthalates, and on and on. And this evidence shows that it is 
beginning to happen.
    So I think it is important to notice that these reforms 
were worked out by this committee in one of the last great 
efforts that was completely bipartisan. We should embrace that. 
If there are problems with the way the regulations are being 
promulgated, we need to talk about that, but eliminating these 
important consumer product safety provisions is simply not an 
option.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. DeGette follows:]

                Prepared statement of Hon. Diana DeGette

    Today, we are holding the fourth in a series of hearings 
examining the Federal Government's regulatory review process. 
The Subcommittee has been focused in particular on President 
Obama's Executive order setting forth principles of regulation 
that include protecting public health, welfare, safety, and the 
environment while promoting economic growth and 
competitiveness; and providing for public participation and 
transparency.
    The witnesses before us today represent four important 
federal agencies: the Consumer Product Safety Commission, the 
Federal Energy Regulatory Commission, the Federal 
Communications Commission, and the Federal Trade Commission. 
Because Congress created these agencies as independent 
entities, they are not covered by the President's Executive 
order on regulatory review. It is important, however, for the 
Subcommittee and the public to understand whether the 
regulatory process employed by each of these agencies is 
effective and efficient.
    As we hear from these agencies on their regulatory review 
efforts, we should keep a few thoughts in mind. First, Congress 
created these agencies as independent entities to insulate them 
from political influence and granted them decisionmaking 
flexibilities other agencies do not have.
    Second, irrespective of the Executive order there are a 
number of statutory requirements concerning transparency and 
efficiency in the regulatory process that already apply to the 
independent agencies. For example, the Regulatory Flexibility 
Act requires federal agencies, including independent agencies, 
to analyze the impact of their rules on small organizations. 
The Administrative Procedure Act broadly lays out the scheme 
under which agencies propose and finalize regulations, and 
provides for public participation in the rulemaking process.
    Finally, it is important to remember that the underlying 
mission of all of the agencies before us today is to ensure the 
health and safety of our citizens. While we should make certain 
the regulations they propose are well crafted, we must also 
acknowledge the importance of the work that they do and the 
regulations they promulgate. For example:
    o This year, FCC issued a report and order to adopt a rule 
requiring mobile providers to enter data roaming arrangements 
with other providers, allowing consumers to remain connected 
when they travel outside of their provider's coverage area.
    o FTC recently established the Do-Not-Call registry, 
allowing consumers to choose whether they want to receive calls 
from telemarketers.
    o CPSC has initiated a wide range of recent efforts to 
protect our children, from developing mandatory standards for 
cribs . to addressing the problem of dangerous toys . to 
banning certain phthalates in children's products.
    o And every day, FERC acts as a neutral adjudicatory body 
handling extremely complicated technical issues concerning our 
electricity market. Through its work the Commission limits 
regional disparities in electricity, natural gas, and oil 
pricing.
    I am pleased that we have before us today Commissioners 
from both parties. One of the ways Congress ensured bipartisan 
input at these agencies was to provide that no more than three 
Commissioners at the agencies can be of the same party. I hope 
that the Subcommittee will use this opportunity to hear a 
variety of perspectives on how to best ensure an effective 
regulatory process at the independent agencies, and that avoid 
focusing on policy or personality disagreements among 
Commissioners. I look forward to hearing from our distinguished 
witnesses.

    Mr. Stearns. I thank the gentlelady.
    The gentleman from Nebraska, Mr. Terry, is recognized for 3 
minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Well, thank you, Mr. Chairman. I appreciate you 
holding this important regulatory reform hearing.
    I applauded the President when he issued his Executive 
order creating this cost-benefit analysis and look towards 
creation of jobs versus elimination of jobs by regulation, and 
I feel that it is time that the independent agencies adopt this 
and that is why I have introduced H.R. 2204, the Employment 
Act, which will require that all major regulations include a 
statement of the number of jobs created, lost, or sent overseas 
because of the new rules and regulations. Under this Act, all 
major federal action significantly affecting jobs and job 
opportunities require rigorous analysis compared to that given 
to the environmental impacts, and this legislation would 
establish a policy that jobs are important as is public health 
and the environment. And this would be an issue of, you could 
take into effect the jobs lost by certain American toy 
companies when we figure out that children don't eat ATVs but 
yet banning children ATVs could have an impact on jobs.
    Now, we have already seen the problems caused by regulators 
not paying enough attention to the effect their actions have on 
jobs. In my own district, regulations enacted by the Consumer 
Product Safety Commission acting far beyond its authority or 
intent of this law, what I feel isn't one of the most important 
ones, it is important but I think it may be an example of one 
of the most poorly written bills too. For example, Wes and 
Willie's. I shouldn't have used their name but it is a local 
small business making children's clothes, some of which they 
have contracted to have done in China as well as Omaha. Does it 
really make sense that the same design has to be tested on 
every size of tee shirt, different color of tee shirts? Does it 
make sense that they have to add 10 tee shirts together 
assuming a child is going to completely eat 10 tee shirts in 
one sitting? None of this really makes sense.
    So this type of system where it is one size fits all, 
Mattel versus Wes and Willie's, it really doesn't make a lot of 
sense. I have found out the irony is that many of these rules 
don't really protect the consumers but just make it more 
difficult to do their job, really putting small businesses in 
particular on the brink of extinction because of these 
unnecessary rules and regulations.
    So I appreciate this hearing so we can protect, and I will 
give my time back to the chairman.
    Mr. Stearns. I thank the gentleman, and I yield 2 minutes 
to the gentlelady from Tennessee, Mrs. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and welcome to our 
witnesses. We appreciate that you are here to talk with us 
about the President's Executive Order 13563 and its non-
application to the independent agencies.
    These agencies have refused to voluntarily comply with the 
order to require justification for the cost and the burdens of 
their regulations. Some agencies believe that their political 
ends justify their regulatory means and that their insulation 
from the traditional checks and balances is a blank check for 
them to pursue hyperactivist causes. Bureaucrats bolted a 
restrictor plate to our economic engine and they really have 
flagged private sector job growth to the pits and now they are 
resisting voluntary compliance with the Obama order because 
failing to justify their costly regulations means Congress and 
the American people are going to raise more questions instead 
of delegating more power and authority.
    Now, these agencies don't know how to make the best 
individual decisions for us, what foods we eat, what toys we 
buy, what privacy settings we want on our mobile devices or 
what light bulbs we prefer to use in our homes. These agencies 
that use explicit regulatory intimidation and threats of 
government taking to impose voluntary regulations on job 
creators aren't even willing to hold themselves to the same 
standard. They refuse. We need to hold these agencies 
accountable. Let us ensure greater efforts are taken to balance 
the economic harms with the agencies that these agencies are 
causing on our economic growth and jobs, and I yield back.
    Mr. Stearns. The gentlelady yields back, and I recognize 
the distinguished ranking member, Mr. Waxman, for 5 minutes for 
his opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    This is the fourth hearing this subcommittee has had on the 
issue of regulations. The others have been on the President's 
Executive order, and the third focused on health regulations 
that were recently adopted. Now we are looking at the 
independent regulatory agencies. The President's Executive 
order applies to those agencies that are under the Office of 
Management and Budget. They are not independent. The agencies 
before us are determined by law to be independent. That doesn't 
mean they don't take into consideration costs and benefits when 
they issue regulations. They have to have notice and comment 
and get full input. I think that what we need to do is to make 
sure we don't have regulations that are unnecessary but these 
hearings that we have had devolved into forums for questioning 
health, environment, and consumer protection laws that my 
colleagues on the Republican side of the aisle find 
objectionable. I was struck by the comments of the last speaker 
that we don't want these independent agencies, they don't make 
good decisions, they don't know how to make the best decisions, 
they are using regulatory intimidation on jobs creators. I can 
think of no other expression of hyper view of all this. We 
shouldn't have a lopsided focus on the costs with no seeming 
consideration of the benefits, and we haven't had hearings that 
have resulted in any substantial legislation or important 
oversight findings.
    Now, the four independent agencies have done a lot to make 
the lives of American citizens better. The Consumer Product 
Safety Commission recently launched a new consumer complaint 
database, which allows parents and concerned consumers to 
obtain important product safety information and which will 
improve CPSC's ability to identify trends in product hazards 
more efficiently. Just this morning, I released the first 
analysis of the product safety database. We found that in its 
first 3 months of operation, the database has already logged 
over 1,600 incident reports, including reports of almost 500 
injuries or fatalities. And consumers visiting the online 
database have conducted almost 1.8 million product searches. 
Now, maybe some of these manufacturers don't want anybody 
looking over their shoulder but that is not the job of these 
agencies to do what the manufacturers want. Their job at the 
CPSC is to protect the consumers.
    Mr. Chairman, I would ask unanimous consent that this 
report be included as part of the committee record.
    Mr. Stearns. Will the gentleman hold? I think we just have 
a copy of it.
    Mr. Waxman. I will withdraw my----
    Mr. Stearns. Just withdraw until we have a chance to look 
at it.
    Mr. Waxman. The FCC just proposed rulemaking to require 
cell phone companies to provide usage alerts that warn 
consumers of unexpected charges on their bills. Less than 7 
months ago, the agency adopted a crucial rule to protect the 
openness of the Internet. I think these are two very important 
accomplishments, and Ms. DeGette pointed out others. The FTC 
has recently adopted rules to protect homeowners from scams 
falsely promising relief from mortgage payments. In the last 
year alone, the FTC's Bureau of Consumer Protection filed over 
60 cases to protect the rights of consumers. Is this 
intimidation? It seems to me these agencies are doing their 
job, and we want to keep them independent from the political 
pressure that you can see clearly in the comments of members of 
this committee. FERC protects consumers from price gouging in 
the electricity and energy markets.
    These accomplishments are important. They save money for 
the American public, prevent fraud and improve public safety 
and public health. They may offend powerful companies that 
would like to take advantage of consumers, and which may have 
support by some members of Congress in carrying their water, 
but that is no reason for us to browbeat the agencies. The 
focus of our oversight should be to help these agencies advance 
the goal of enhancing the lives of the American family.
    Our committee is responsible in the area of legislation in 
some key areas: health care for seniors, setting our Nation's 
energy policy, promoting telecommunications innovation and 
competitiveness, and ensuring appropriate consumer protections 
for American families and children. The oversight work of this 
subcommittee should shed light on how to best legislate in 
these and other important subjects.
    That is why there are real costs when this committee 
focuses its time on partisan wheel spinning and messaging. We 
lose the opportunity to move legislation that will promote 
jobs, promote economic security and protect the health, safety 
and welfare of the American public.
    I hope that we make good use of our time today with the 
commissioners, and I urge the chairman and all members to 
support their efforts on behalf of the American public, and I 
yield back the balance of my time.
    [The prepared statement of Mr. Waxman follows:]

               Prepared statement of Hon. Henry A. Waxman

    Today, this subcommittee is holding its fourth hearing on 
regulatory reform. The first two hearings focused on the 
President's Executive order on regulatory review. The third 
hearing focused on the Administration's recent health 
regulations.
    This time we are focusing on four independent agencies--the 
Consumer Product Safety Commission, the Federal Communications 
Commission, the Federal Energy Regulatory Commission, and the 
Federal Trade Commission--which are not subject to the 
President's Executive order.
    I support efforts to ensure that federal regulations are 
clearly drafted and narrowly tailored, and I believe in 
transparency and eliminating needless regulation. But the focus 
of the Subcommittee's hearings on regulatory review thus far 
has not been on improving the regulatory process. These 
hearings have devolved into forums for questioning health, 
environment, and consumer protection laws that my colleagues on 
the other side of the aisle find objectionable. These sessions 
also have been marked by a lopsided focus on costs with no 
seeming consideration of benefits. And they have not resulted 
in any substantial legislation or important oversight findings.
    The four independent agencies before us have done a lot to 
make the lives of American citizens better.
    The Consumer Product Safety Commission recently launched a 
new consumer complaint database, which allows parents and 
concerned consumers to obtain important product safety 
information and which will improve CPSC's ability to identify 
trends in product hazards more efficiently. Just this morning, 
I released the first analysis of the product safety database. 
We found that in its first three months of operation, the 
database has already logged over 1,600 incident reports, 
including reports of almost 500 injuries or fatalities. And 
consumers visiting the online database have conducted almost 
1.8 million product searches.
    Mr. Chairman, I ask that this report be included as part of 
the Committee record.
    The FCC just proposed a rule to require cell phone 
companies to provide usage alerts that warn consumers of 
unexpected charges on their bills. Less than 7 months ago, the 
agency adopted a crucial rule to protect the openness of the 
Internet.
    The FTC has recently adopted rules to protect homeowners 
from scams falsely promising relief from mortgage payments. In 
the last year alone, the FTC's Bureau of Consumer Protection 
filed over 60 cases to protect the rights of consumers.
    And FERC protects consumers from price gouging in the 
electricity and energy markets.
    These accomplishments are important. They save money for 
the American public, prevent fraud, and improve public safety 
and public health. They may offend powerful companies that 
would like to take advantage of consumers, but that is no 
reason for us to browbeat the agencies. The focus of our 
oversight should be to help these agencies advance the goal of 
enhancing the lives of American families.
    Our Committee is responsible for forging legislation in key 
areas: providing health care for seniors; setting our nation's 
energy policy; promoting telecommunications innovation and 
competitiveness; and ensuring appropriate consumer protections 
for American families and children. The oversight work of this 
Subcommittee should shed light on how to best legislate in 
these and other important areas.
    That is why there are real costs when the Committee focuses 
its time on partisan wheel-spinning and messaging: we lose the 
opportunity to move legislation that will promote jobs, promote 
the economic security, and protect the health, safety, and 
welfare of the American public.
    I hope the Subcommittee makes good use of our time today 
with the Commissioners, and I urge the Chairman and all members 
to support their efforts on behalf of American families.

    Mr. Stearns. I thank the gentleman, and all opening 
statements are concluded.
    I ask unanimous consent that the written opening statement 
of Mr. Upton and others who wish to provide opening statements 
for this hearing be made part of the record. Without objection, 
the documents will be entered into the record.
    [The prepared statements of Mr. Upton and Mrs. Myrick 
follow:]

                 Prepared statement of Hon. Fred Upton

    In January, President Obama issued Executive Order 13563 
and joined a government-wide dialogue about regulatory reform. 
While he is not the first president who has tried to tackle 
this challenge, his stated commitment to reining in 
overregulation was a hopeful first step this year. Regulatory 
relief is essential to a strong economic recovery and boosting 
job creation. That's why it plays a leading role in the GOP's 
Plan for America's Job Creators.
    Five months later, however, I must say that I am 
disappointed with the Executive order's results. The 
President's stated goals are far from being realized and 
nowhere is that more true than among the independent regulatory 
agencies.
    The Office of Information and Regulatory Affairs estimates 
that independent agencies have a $230 billion a year impact on 
the U.S. economy--not an insignificant figure. Nevertheless, 
Executive Order 13563, like those which preceded it, does not 
expressly apply to these agencies.
    According to a February guidance memo sent by OIRA 
Administrator Cass Sunstein, the independent agencies ``are 
encouraged to give consideration to all [of the Executive 
order's] provisions. . .Such agencies are encouraged to 
consider undertaking, on a voluntary basis, retrospective 
analysis of existing rules.'' Shamefully, at this 
Subcommittee's June 3, 2011 hearing, Mr. Sunstein confirmed for 
us that not one of the independent agencies under this 
Committee's jurisdiction had voluntarily submitted to his 
office such a plan.
    In a June 1st letter to the editor printed in the Wall 
Street Journal, Nancy Nord, a Commissioner of the Consumer 
Product Safety Commission, noted that, under the Obama 
administration, CPSC has ``ignored the recent direction to look 
for and eliminate burdensome regulations. We are just too busy 
putting out new regulations.'' Two of Ms. Nord's fellow CPSC 
Commissioners are here today, along with several other 
representatives from independent agencies. I hope they can 
provide us with an update on their efforts to provide 
regulatory relief and answer troubling questions about what 
appears to be inaction until now in complying with the letter 
and spirit of the President's Executive order.
    Independent regulatory agencies contribute their fair share 
of burdensome regulations that affect all aspects of our 
economy and stifle job creation. The President's push for 
regulatory reform is meaningless if independent regulatory 
agencies are left out of this effort.
                              ----------                              


             Prepared statement of Hon. Sue Wilkins Myrick

    I appreciate the Subcommittee's examination of how 
independent agencies are approaching the ``Improving Regulation 
and Regulatory Review'' Executive order issued by President 
Obama. As we're all well aware, regulations can create 
unnecessary burdens that hinder economic development and job 
creation.
    An electric utility headquartered in my home state of North 
Carolina is tangled up in an ongoing hydropower relicensing 
problem which I think exemplifies the real world detriment that 
can result from a lack of coordination at the federal level.
    As I understand it, Duke Energy is trying to relicense a 
set of dams in the Catawba-Wateree river basin in South 
Carolina. Working with local stakeholders and the local office 
of the National Marine Fisheries Service (NMFS), the Federal 
Energy Regulatory Commission (FERC) agreed to incorporate a set 
of recommendations to protect the endangered short-nose 
sturgeon as part of the project's Final Environmental Impact 
Statement for the project. Unfortunately, the regional NMFS in 
St. Petersburg, Florida ultimately recommended a different set 
of recommendations that continue to delay the relicensing 
process.
    Not only does this seem to be a case in which two federal 
entities cannot agree on the appropriate path forward, it 
highlights a case in which two offices within the same agency 
cannot agree. A NMFS office several hundred miles away is 
substituting its judgment for a local office that has been 
involved throughout the process.
    Aside from affecting utility rates paid by consumers in 
North Carolina and South Carolina, the provisions sought by the 
regional NMFS office could potentially jeopardize a carefully-
negotiated water rights apportionment settlement.
    Sadly, the Catawba-Wateree relicensing issue is just one of 
many situations in which federal regulatory actions harm 
Americans. It is my hope that today's hearing will lead to 
improvements in the regulatory environment.

    Mr. Stearns. Now it is my opportunity to welcome our 
distinguished panel. I don't remember in my experience in 
Congress where I have ever seen these many agencies collected 
together, and I don't think there ever has been, at least in my 
experience. So it is a very auspicious occasion to have this 
distinguished group here to meet, and we appreciate you coming.
    I thought for the members I would just give you a brief bio 
of each of the witnesses. Commissioner Robert Adler, Consumer 
Product Safety Commissioner, is a commissioner at the United 
States Consumer Product Safety Commission. He was appointed in 
August 2009. Prior to assuming office, he served as a professor 
of legal studies at the University of North Carolina at the 
Luther Hodges Junior Scholars in Ethics in Law at Chapel Hill's 
Kenan-Flagler Business School. At the University of North 
Carolina, he served as the Associate Dean of the MBA program as 
Associate Dean of the school's bachelor of science in business. 
Welcome.
    Commissioner Anne Northup is the honorable--in fact, she 
serves the 3rd Congressional District of Kentucky representing 
Louisville district in the United States House of 
Representatives as a Republican from 1997 to 2006. Before her 
tenure in Congress, she served in the Kentucky House of 
Representatives for 9 years from 1987 to 1996. On July 30, 
2009, President Obama nominated her to a seat on the Consumer 
Product Safety Commission and was confirmed by the Senate on 
August 7, 2009. Welcome, Anne.
    Commissioner Robert McDowell was first appointed to a seat 
on the Federal Communications Commission by President Bush in 
2006. He was reappointed to the commission by President Barack 
Obama in 2009. He brings over 16 years of private sector 
experience in the telecommunications industry to the 
commission. Welcome.
    Chairman Jon Wellinghoff was named chairman of the Federal 
Energy Regulatory Commission, FERC, the agency that oversees 
wholesale electric transaction and interstate electric 
transmission and gas transportation in the United States by 
President Obama on March 19, 2009, a member of the commission 
since 2006. The U.S. Senate confirmed him to a full 5-year FERC 
term in December 2009. He is an energy specialist with more 
than 34 years experience in the field. Welcome.
    Commissioner Philip Moeller is currently serving his second 
term on the commission of FERC, having been nominated by 
President Obama and sworn in for a term expiring on June 30, 
2015. He was first nominated to FERC by President Bush in 2006 
and sworn into office on July 24, 2006. From 1997 through 2000, 
he worked in Congress, serving as an energy policy advisor to 
Senator Slade Gordon, where he worked on electricity policy.
    And then we have Chairman Jon Leibowitz from the Federal 
Trade Commission. He served as chairman of this commission 
since February 2009. He was appointed to the FTC as 
commissioner in the fall of 2004. Before coming to the 
commission, he had a long career in the public sector, working 
for the U.S. Senate Judiciary Committee for almost 10 years, 
and prior to that, in the office of Senator Paul Simon. 
Welcome.
    Commissioner William Kovacic served on the Federal Trade 
commission since January 2006 and served as chairman from March 
2008 to March 2009. He was the FTC's General Counsel from 2001 
through 2004 and worked for the commission from 1979 until 
1983. He has been a professor of law at George Washington 
University Law School and has also taught law at George Mason 
University School of Law. Welcome.
    As you know, the testimony that you are about to give is 
subject to Title 18, section 1001 of the United States Code. 
When holding an investigative hearing, this committee has the 
practice of taking testimony under oath. Do any of you have any 
objection to testifying under oath? No? OK.
    The Chair then advises you that under the rules of the 
House and the rules of the committee, you are entitled to be 
advised by counsel. Do you desire to be advised by counsel 
during your testimony today? If not, then if if you would 
please rise and----
    Mr. Bilbray. Mr. Chairman.
    Mr. Stearns. Yes?
    Mr. Bilbray. I hate to interrupt right now, but one thing I 
would ask, at least of one member here, is that pictures are 
not taken while they are being sworn in. I know this is done, 
but I just think that is unfair to the witnesses. I think it 
sends a message that it is not appropriate and I would ask the 
camera people not to take a picture of individuals with their 
right hand raised. I just think it is used to often to send the 
wrong message to the public. Everyone here is voluntarily 
participating and we should not be giving a false impression to 
the public. That is just one member's statement but I think in 
the environment of fairness on both sides, I am going to raise 
this issue again and again, and I am doing that today, and I 
apologize.
    Mr. Stearns. I thank the chairman, and as you know, he and 
I are good friends. Unfortunately, I will have to overrule you. 
I think the press has a right to take pictures when they want, 
and I think that is probably what I have seen in my experience 
being involved with so many Oversight and Investigation 
hearings as well as others that it is customary to let the 
press have access, so I am sorry to have to overrule you. And 
if all of you would please stand up and raise your right hand?
    [Witnesses sworn.]
    Mr. Stearns. Well, it is my pleasure now to start with the 
opening statements, and Mr. Adler, we welcome you and look 
forward to your statement.

 TESTIMONY OF ROBERT S. ADLER, COMMISSIONER, CONSUMER PRODUCT 
SAFETY COMMISSION; ANNE NORTHUP, COMMISSIONER, CONSUMER PRODUCT 
   SAFETY COMMISSION; ROBERT MCDOWELL, COMMISSIONER, FEDERAL 
 COMMUNICATIONS COMMISSION; JON WELLINGHOFF, CHAIRMAN, FEDERAL 
ENERGY REGULATORY COMMISSION; PHILIP D. MOELLER, COMMISSIONER, 
FEDERAL ENERGY REGULATORY COMMISSION; JON LEIBOWITZ, CHAIRMAN, 
FEDERAL TRADE COMMISSION; AND WILLIAM E. KOVACIC, COMMISSIONER, 
                    FEDERAL TRADE COMMISSION

                  TESTIMONY OF ROBERT S. ADLER

    Mr. Adler. Thank you very much, and good morning, Chairman 
Stearns, Ranking Member DeGette and the members of the 
Subcommittee on Oversight and Investigations. Thank you for the 
opportunity to testify along with my colleague, Anne Northup, 
on behalf of the Consumer Product Safety Commission. My name is 
Bob Adler and I have been a commissioner at the agency since 
August of 2009.
    I am honored to sit in the company of so many of my fellow 
independent agency commissioners, and I bring you regrets from 
Chairman Tenenbaum, who is not able to be here today.
    In order for me to respond to the subcommittee's request 
for the agency's response to Executive Order 13563 and similar 
Executive orders, I briefly need to review a few critical 
points about rulemaking at the CPSC. I do so to make the point 
that we have undertaken the promulgation of regulations and 
their retrospective review in the full spirit of the policies 
incorporated in the Executive orders despite our being exempt 
from the orders, so I would like to make a few observations and 
I promise I will be brief.
    First, since 1981, the CPSC has been required under 
amendments to the Consumer Product Safety Act and to the other 
acts that it enforces to conduct an exhaustive cost-benefit 
analysis when we write safety rules. Under these amendments, 
our cost-benefit approach is as comprehensive, if not more so, 
as that set forth in any Executive order issued by the Office 
of the President, and I think in the case of any other agency. 
In fact, over the years, in part because of the detailed and 
lengthy cost-benefit procedures contained in our laws, the 
commission has actually promulgated very few mandatory safety 
rules under these procedures.
    Now, I did a count, so I could be off by one or two, but by 
my count, in 30 years we have issued a grand total of nine 
mandatory safety standards, or about one every 3\1/3\ years, 
which has meant we have had to turn to alternative approaches, 
one of which is working with the voluntary standards sector to 
promulgate voluntary standards and to upgrade voluntary 
standards. The other thing that we have done is to work through 
a very successful corrective action recall program, and I think 
that has been successful.
    With respect to regulatory review, you did note the passage 
of the Regulatory Flexibility Act in 1980. At that time, the 
CPSC choose to undertake a retrospective review of every safety 
rule under its jurisdiction from the very beginning, not just 
those identified as having a significant impact on a 
substantial number of small economic entities. Since this 
review, we have continued for the past 30 years to comply with 
the requirements for retrospective review of our regulations 
under the Regulatory Flexibility Act.
    In addition to conducting a retrospective review of 
regulations under the RFA, the CPSC has voluntarily undertaken 
a comprehensive review of its regulations beginning in 2004 and 
temporarily suspended in 2007 in a spirit consistent with 
Executive Order 13563. In fact, in conducting our review, we 
have committed the agency to using OMB's assessment tool. The 
only departure from our approach arises because of the 
enactment of the Consumer Product Safety Improvement Act in 
2008. In response to its grave concerns about the need to 
protect the lives of young children, Congress voted 
overwhelmingly, and in the House it was a vote of 424 to 1, to 
set a number of very tight guidelines for the commission to 
meet. Our general counsel did a count of the number of 
deadlines imposed on us. There were 42 separate deadlines 
imposed by the Consumer Product Safety Improvement Act.
    But recognizing the difficulty of meeting these guidelines, 
Congress streamlined our rulemaking authority when writing 
these children's safety rules and limited the requirements in 
the CPSIA for economic analysis of the impact of the rules. The 
streamlined procedure directed to regulate hazardous children's 
products such as infant bath seats, baby walkers and cribs, all 
of which were associated with an unacceptable number of 
fatalities and serious injuries has, I believe, resulted in 
significantly more expeditious and protective safety standards 
that should save numerous lives in the coming years and could 
not have been accomplished otherwise.
    I particularly want to note the commission's new crib 
standards, which was unanimously approved by all of our 
commissioners and became effective last Tuesday, June 28. This 
standard sets the most stringent safety requirements for cribs 
in the world and ensures that the place that infants spend the 
most time and the most time alone will be the safest place in 
their homes. Having noted that, I hasten to add that even with 
this new authority under CPSIA, the commission remains 
obligated to conduct economic analyses under the Regulatory 
Flexibility Act assuring that our most vulnerable small 
business sector is safeguarded along with safeguarding our most 
vulnerable young consumers.
    The commission is well on its way to meeting the deadlines 
imposed under the CPSIA. We haven't met all of them, and we are 
going to miss a few more, but as we wind down the bulk of our 
CPSIA rulemaking, it is my understanding that Chairman 
Tenenbaum has directed staff to develop options to restart the 
retrospective review process.
    In closing, notwithstanding that independent agencies do 
not fall under the direct purview of Executive orders like 
13563, we at CPSC have always tried to implement the wisdom 
contained in those Executive orders and to coordinate our 
efforts in the spirit of such orders to the best of our 
ability.
    Finally, I note that CPSC's jurisdiction is very broad. 
Roughly speaking, if you walk into a department store, a 
sporting goods store, a hardware store, a toy store or you go 
to a school, that is us. Those products that are in those 
institutions are the things we regulate. But we are an agency 
that has barely above 500 people and a budget just about $118 
million. In other words, I am sitting at a table with agencies 
that are between two and a half and three times our size. But 
given these limits on our resources, I think we have done a 
good job in advancing consumer safety, and thank you very much.
    [The prepared statement of Mr. Adler follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. I thank the gentleman.
    Ms. Northup, welcome. It is particularly nice to have a 
former member.

                   TESTIMONY OF ANNE NORTHUP

    Ms. Northup. Thank you. Chairman Stearns and Ranking Member 
DeGette, thank you so much for the opportunity to testify in 
front of you, and I am delighted to be back on Capitol Hill 
with you. I have great respect and appreciation for the 
challenges you face every day and the decisions you make. I do 
appreciate the opportunity to come and give you some idea of 
what it looks like from the other side, from a regulatory 
agency.
    You just heard an excellent history of review of the 
Consumer Product Safety Commission and the past, the way they 
operated, primarily through the development of voluntary 
guidelines, through risk assessment and intervention when there 
were real risks based on science and the ability to intervene 
when they were dangerous products. However, all of what was 
said about the reviews of our regulations and the 
reasonableness of that changed in 2008 when the Consumer 
Product Safety Improvement Act went into effect, and in fact, 
very little of that would be present today. As a matter of 
fact, we no longer have the option to consider risk in most of 
the things we do. We are required to write rules based on 
numbers that were given to us in the CPSIA but that hasn't 
stopped us in the regulatory process of casting a wider net 
including maybe more toys and more children's products or more 
products than the law requires us to do to make steps where the 
testing is more rigid than required by the law. And so while 
the law is very difficult, it has been very hard for small 
businesses in particular to comply with it, we have at the 
agency, in my opinion, gone beyond what the law has required us 
to do.
    Let me just give you some idea. In the time since the CPSIA 
passed, we have been involved in about 50 rulemakings if you 
include the statements of policies, the notice of requirements 
and lab accreditations, and by the way, lab accreditations are 
huge because any time we do a notice of requirements for labs 
to be accredited, within 6 months every product under that 
category has to begin sending every component and every part of 
their product to a lab for a third-party test and certify based 
on those tests and label their product to reflect what those 
certifications are.
    So in truth, while I appreciated what Representative Waxman 
said about big companies complaining, it is actually the 
opposite. Very few of our largest companies complain. Most of 
them make products in such large numbers that they can spread 
their costs around, and what we have really done is put out of 
competition the smaller businesses that made things primarily 
in this country. Those are the people that we hear from because 
they cannot spread their costs over so many products.
    You know, I hear so often people say oh, yes, that is the 
law we passed to decrease the number of things coming in from 
China or that is the law we passed to make the big companies 
comply, but in fact, the effect of the cost of these 
regulations has been the burden that has put many, many small 
businesses out of business. It has caused those smaller 
businesses to leave the children's product market. We have the 
public that has fewer choices than they have ever had in the 
past and we are told that if we--our four, by the way, biggest 
rules are still to come. They are expected to come before 
December 31st or to take effect by December 31st.
    I thought I would share with the committee one that I 
anticipate that we will agree on, the majority. I expect it to 
be a 3-2 vote, and that is allowing the parts per million of 
lead in any component of a child's product to reduce to 100 
parts per million as of August 15th. This is what our economic 
team said about this: ``Economic impacts are likely to occur. 
They are going to have to use more expensive low-lead materials 
rather than the non-conforming materials used today. The cost 
associated with the reengineering products to make the new 
materials, the cost to make leaded components that are 
inaccessible, the increased testing costs, the increased 
consumer products, the reductions in the types and quantities 
of the children's products available to consumers, businesses 
that are exiting the children's product market, manufacturers 
going out of business, reduction in the utility of products and 
the reduction in the durability of products.'' This is all for 
this one rule that we are about to--or this one step-down that 
we are about to take effect, and it says there is no 
anticipated benefit in health to children because of this. And 
so I would just point out to you that 10 out of 40 of the small 
manufacturers of bicycles left the market with the original 
step-down. We anticipate more will exit the market. And my 
question, I guess, is, what sort of regulation sort of 
rationalization can be brought to this process. I have proposed 
many times ways to within the limits of the law to lessen the 
impact of this, and I am disappointed that we haven't done more 
of that at the commission. Thank you.
    [The prepared statement of Ms. Northup follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. Commissioner McDowell.

                  TESTIMONY OF ROBERT MCDOWELL

    Mr. McDowell. Thank you, Mr. Chairman and Ranking Member 
DeGette and all members of the committee for having me here 
today.
    During my 5 years at the FCC, I have supported policies 
that promote consumer choice through abundance and competition 
in lieu of regulation whenever possible. I therefore welcome 
today's dialog on regulatory reform.
    Fifty years ago, there were only 463 pages in the FCC's 
portion of the Code of Federal Regulations, the C.F.R. During 
this period, Americans only had a choice of three TV networks 
and one phone company. Today, over-the-air TV, cable TV, 
satellite TV and radio, and the millions of content suppliers 
of the Internet offer consumers with an abundance of choices. 
In other words, the American communications economy was far 
less competitive in 1961 than it is today yet it operated under 
fewer rules.
    In contrast, by late 1995, the FCC's portion of the C.F.R. 
had grown to 2,933 pages, up from 463 34 years earlier. As of 
the most recent printing of the C.F.R. last October, it 
contained a mind-numbing 3,695 pages of rules. Even after 
Congress codified deregulatory mandates with the landmark 
Telecommunications Act of 1996, the FCC still managed to add 
hundreds more pages of rules.
    To put it another way, the FCC's rules measured in pages 
have grown by almost 800 percent over the course of 50 years, 
all while the communications marketplace has enjoyed more 
competition. During this same period of regulatory growth, 
America's GDP grew by a substantially smaller number, 357 
percent. In short, this is one metric illustrating government 
growth outpacing economic growth.
    To be fair, some of those rules were written due to various 
congressional mandates and sometimes the FCC does remove 
regulations on its own accord or forbear from applying various 
mandates in response to forbearance petitions. But all in all, 
the FCC's regulatory reach has grown despite congressional 
attempts to reverse that trend. At the same time, Congress has 
given the FCC ample authority to deregulate. The legislative 
intent of key parts of the 1996 act such as sections 10, 11, 
202H and 706, just to name a few, was to reduce the amount of 
regulation in telecommunications, broadcasting and information 
services. For instance, Congress ordered the FCC through 
section 10 of the 1996 act to forbear from applying a 
regulation or statutory provision that is not needed to ensure 
that telecom carriers' market behavior is reasonable and not 
necessary for the protection of consumers. Similarly, section 
11 requires the FCC to conduct reviews of telecom rules every 2 
years to determine whether any such regulation is no longer in 
the public interest as a result of meaningful economic 
competition and to repeal or modify any regulation it 
determines to be no longer necessary in the public interest.
    Removing unneeded rules can liberate capital currently 
spent on lawyers and filing fees, capital that would be better 
spent on powerful innovations. Accordingly, it is my hope that 
the FCC stays faithful to Congress's intent as embodied in 
section 11 by promptly initiating a full and thorough review of 
every FCC rule, not just those that apply to telecom companies 
but all rules that apply to any entity regulated by the 
commission. The presumption of the FCC's review should be that 
a rule is not necessary unless we find compelling evidence to 
the contrary.
    The first set of rules I would discard of course would be 
the recently issued Internet network management regulatory 
regime, also known as net neutrality. As I have stated many 
times before, those rules are unnecessary at best and will 
deter investment in badly needed next-generation infrastructure 
at worst. No evidence of systemic market failure exists to 
justify these overly burdensome regulations.
    Furthermore, the FCC has too many forms. To give you some 
examples, there is form 603, form 611T, form 175, form 601, 
form 492, form 477, form 323 and forms 396, 396C--I am not sure 
what happened to 396A and B--form 397 and 398, among many, many 
others. While a few forms may be necessary, many could be 
eliminated or simplified. Similar repeal initiatives should be 
on our plate soon. For example, as I noted in a speech in May, 
the so-called fairness doctrine is literally still codified in 
the C.F.R. The doctrine regulated political speech. Political 
speech is core protected speech under the First Amendment and 
the doctrine is patently unconstitutional, as the FCC found in 
1987.
    Chairman Genachowski recently informed your committee that 
he supports removing references to the doctrine and its 
corollaries from the C.F.R. and intends to move forward on this 
effort in August. I look forward to helping him fulfill that 
promise.
    In the same spirit, it is time to eliminate the outdated 
newspaper-broadcast cross-ownership rule in the upcoming review 
of our media ownership regulations. Evidence suggests that the 
old cross-ownership ban may have caused the unintended effect 
of reducing the number of media voices, especially newspapers 
in scores of American communities. Overall, however, what is 
needed is a comprehensive and sustained effort to repeal or, 
where appropriate, streamline unnecessary, outdated or harmful 
FCC rules. All future regulatory proceedings should start with 
a thorough market analysis that assesses the state of 
competition in a sober and clear-eyed manner.
    In the absence of market failure, unnecessary regulations 
in the name of serving the public interest can have the 
perverse effect of harming consumers by inhibiting the 
constructive risk-taking that produces investment, innovation, 
competition, lower prices and jobs. In sum, decreasing the 
burdens of onerous or unnecessary regulations increases 
investment, spurs innovation, accelerates competition, lowers 
prices, creates jobs and serves consumers.
    I look forward to working with all of you in pursuit of 
these goals. Thank you, Mr. Chairman.
    [The prepared statement of Mr. McDowell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. I thank the gentleman.
    Welcome, Chairman Wellinghoff, for your opening statement.

                  TESTIMONY OF JON WELLINGHOFF

    Mr. Wellinghoff. Thank you, Chairman Stearns, Ranking 
Member DeGette and members of the subcommittee. I want to thank 
you all for having us here today, and my colleague, 
Commissioner Moeller, to discuss our views on regulatory reform 
in independent agencies. We have submitted full testimony here 
that I would like to have entered into the record, and I will 
summarize my testimony.
    The commission continually seeks to streamline its 
regulations in order to foster competitive markets and 
facilitate enhanced competition to minimize consumer costs. 
Implementing the statutory authority provided by Congress, I am 
committed to assisting consumers in obtaining reliable, 
efficient and sustainable energy services at a reasonable cost 
for appropriate regulatory and market means. Fulfilling this 
mission involves pursuing two primary goals: ensuring that 
rates, terms and conditions are just and reasonable and not 
unduly discriminatory or preferential, and promoting the 
development of safe, reliable and efficient infrastructure that 
serves the public interest. The commission has taken and 
continues to take a number of steps to make certain that its 
regulations meet the fundamental objectives set forth by 
Congress without imposing undue burdens on regulated entities 
or unnecessary costs on those entities or their customers.
    For example, the commission has taken several steps to 
remove barriers to entry of new businesses and technologies 
which facilitate competitive markets and can lower consumer 
costs. The commission also seeks out ways to help entities, 
particularly small ones, navigate the federal regulatory 
process. The commission has also recently reduced burdens on 
applicants, speeding up processes of filings and improved 
public access to documents.
    In sum, I support the goals of Executive Order 13563. I 
have directed the commission staff to conduct review of the 
commission's regulations with the goals of the Executive order 
in mind. This direction is consistent with the commission's 
practice of engaging in constant self-review to avoid red tape 
or unnecessary regulation that would impose undue burdens on 
the energy industry and its consumers.
    Thank you, and I look forward to answering any questions.
    [The prepared statement of Mr. Wellinghoff follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. I thank the gentleman.
    Commissioner Moeller, welcome.

                 TESTIMONY OF PHILIP D. MOELLER

    Mr. Moeller. Thank you, Mr. Chairman, Ranking Member 
DeGette, members of the committee. I appreciate the chance to 
be before you today to talk about these important issues. I 
welcome your oversight, and I will summarize my written 
comments with a brief history, I guess, of how our regulations 
have evolved at the commission and then give you three examples 
of where I think we kind of struggle with balancing the need to 
ensure that our services are provided safely at fair and just 
rates but also making sure that we are protecting and not 
unduly burdening the entities that we regulate.
    The Federal Power Commission, our predecessor, really came 
into its own after the passage of the 1935 Federal Power Act 
and the 1938 Natural Gas Act, and as regulators then, the 
commission was highly relating these entities because they were 
monopoly providers of services that were deemed essential but 
over the decades and particularly in the last 25 years, 
regulation has evolved so that more competitive forces can 
provide consumers with frankly lower prices at better service. 
These came through two landmark orders on the natural gas side, 
436 and 636, which restructured the pipelines, and then on the 
electric side, orders 888 and 2000 that set up regional markets 
and allowed for open access of the transmission systems. Again, 
these have had great benefits for consumers but our 
responsibilities as regulators in monitoring these markets have 
increased substantially since then.
    Three areas where we particularly spend time, the first of 
which I will say is the reliability area of assuring the 
reliability of the bulk power system. Now, the origins of this 
issue came from the 1965 Northeast blackout a voluntary set of 
regulations came about after that, but as time went on, 
particularly in the late 1990s, it was clear that a mandatory 
system was going to be necessary, some kind of a cop on the 
interstate electric highway, and although there was legislation 
in the late 1990s, eventually it took the 2003 blackout and the 
2005 Energy Policy Act before you as Congress directed us to 
create a national electric reliability organization with eight 
regional entities, and in the meantime, we have adopted 101 
national standards, 11 regional standards, and we have had a 
very active enforcement process on those standards. In fact, we 
have had 7,000 violations to date since they became mandatory 
in June of 2007. And frankly, we are struggling with our role, 
the role of NERC, the role of the regional entities because we 
have a bit of a backlog on these violations. They are about to 
about 3,200.
    I think the good news, though, is that through NERC, or 
through our direction to NERC, they are working to make sure 
that it is a better streamlined process so that we can 
eliminate the backlog and essentially share the best practices 
amongst the entities we regulate on the bulk power system.
    A second area is related to that and that is with our new 
powers of enforcement that you gave us in the 2005 Energy 
Policy Act, partly emanating from the Western crisis in 2000 
and 2001. You gave us the kind of major league enforcement 
authority that few agencies have. We can fine entities up to $1 
million per day per violation. And initially when we put out 
some of our rulings with some significant fines, there was some 
criticism from the industry that we lacked transparency in the 
process and lacked priorities, and I am happy to say that our 
office of enforcement under the urging of several of us on the 
commission has opened up that system so that we are a much more 
transparent system now. We adopted annual priorities in terms 
of enforcement, adopted guidelines based on the U.S. Sentencing 
Commission, and essentially have processes and policies in 
place that allow anyone under investigation to know at certain 
times that they are and give them the certain rights that other 
agencies give them. So we are making progress there.
    The third area I would note, because I come from the 
Pacific Northwest, is the hydropower system. We regulate 2,500 
hydropower dams throughout the Nation and some have complained 
that that processing of licensing or, more often, re-licensing, 
is both costly and time consuming, and that much is true, but I 
don't think much of that can be put on FERC. I think actually 
the laws itself that govern the process of re-licensing are 
worth looking at if this is something that inspires you because 
we actually I think do a good job under the current system of 
setting timetables but often the resource agencies don't have 
any consequence to missing the timetables involved.
    In the meantime, though, I think we have tried as an agency 
to develop small hydropower systems through MOUs with various 
states that are interested. We have tried to open up the 
process to stakeholders and developers that are interested in 
small hydropower development and we have come up with a pilot 
licensing process for the new hydrokinetic technologies of in-
stream power, ocean power and tidal power, again in a way 
through our regulations to try and encourage an industry to 
move forward.
    And finally, I will send a compliment to our colleagues at 
the Federal Trade Commission. They have been active in some of 
our rulemakings, and their perspectives are always very 
valuable.
    Thank you for the opportunity again to testify, and I look 
forward to answering any questions.
    [The prepared statement of Mr. Moeller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Stearns. I thank the gentleman.
    Chairman Leibowitz, welcome.

       TESTIMONY OF JON LEIBOWITZ AND WILLIAM E. KOVACIC

    Mr. Leibowitz. Thank you, Chairman Stearns, Ranking Member 
DeGette, Mr. Barton, Dr. Burgess, Mr. Terry, members of the 
subcommittee. Let me thank you for the opportunity to appear 
here today with my friend and my colleague, Bill Kovacic, to 
discuss the FTC's longstanding regulatory review program. It 
has been and it is a bipartisan priority for us as well as our 
plans for ensuring that this program continues to protect 
American consumers while minimizing burdens on American 
businesses.
    Today, the FTC is announcing additional measures to 
strengthen our regulatory review process including an expedited 
schedule for reviewing rules and guides to meet the demands of 
the marketplace, a new streamlined form for pre-merger filings, 
a new page on our Web site to provide greater transparency and 
public participation in reviews and a sort of review of the 
reviews, that is, we are asking stakeholders how we can make 
our review process even better. In that same spirit, we are 
also seeking to identify acts of Congress that appear to be of 
little value but that impose burdens on businesses, 
particularly small businesses and the commission.
    So let me give you a brief overview of the FTC before 
Commissioner Kovacic describes the history and nature of FTC 
regulatory reviews. After he is finished, I will tell you a 
little more about what the commission is doing today to enhance 
and improve our approach to regulations.
    Simply put, we are building on our longstanding regulatory 
housecleaning efforts over the years under which we have 
eliminated outdated rules from the Mad Men era including those 
addressing extension ladders, fiberglass curtains and frosted 
cocktail glasses. That is true.
    As you know, the Federal Trade Commission is the only 
federal agency with both consumer protection and competition 
jurisdiction in broad sectors of the economy, and our work 
touches the lives of virtually every American. We are primarily 
a law enforcement agency but we perform our mission using other 
tools as well including rulemakings from time to time, either 
when Congress asks us or when additional clarity is needed in 
the marketplace. Most of our rules, by the way, are a result of 
directives from Congress because you have recognized that they 
would be valuable to consumers and businesses alike by 
protecting all of us from unfair and deceptive acts or 
practices and by leveling the playing field so that legitimate 
businesses aren't at a competitive disadvantage from the bottom 
feeders who don't always play fair, and with that, I would like 
to turn it over to Commissioner Kovacic.
    Mr. Stearns. Mr. Kovacic, go ahead. Just for members' 
information, the two gentlemen from the Federal Trade 
Commission are going to split their 10 minutes so they will be 
going back and forth, as I understand. Welcome.
    Mr. Kovacic. Thank you, Mr. Chairman, Madam Ranking Member 
and your colleagues for the opportunity to speak here today. 
Although the Executive order that we have been focusing on 
doesn't bind independent agencies, the FTC does endorse its 
goals, and in particular, we endorse the intuition that 
changing market conditions dictate ongoing efforts to determine 
whether existing rules have become outdated, unduly burdensome 
or simply ineffective.
    To ensure that our work meets this objective, since 1992 we 
have had a voluntary program to review our rules and guides. We 
examine each regulation and rule in a 10-year cycle. Each year 
we publish a schedule of review and we begin the examination of 
each rule or guide by publishing a Federal Register notice, and 
this notice seeks comment on the continuing need for the 
regulation or the guide and an examination of its costs and 
benefits to consumers and businesses. We also ask whether 
consequent economic developments call for changes in the rule 
or its outright abolition. We also consider whether the measure 
conflicts with other intervening State, local or national legal 
commends.
    We use these comments and we use the results of workshops 
that we conduct from time to time to decide whether there is a 
continuing need for the regulatory command or guideline and how 
needless burdens could be avoided, and if adjustments are 
warranted, we start proceedings to modify or appeal the rule or 
guide. As John mentioned, through this process, we have 
repealed 37 rules and guides. We haven't repealed one outright 
since 2004. I think we did look at the most serious cases first 
but we have undertaken modifications with respect to others 
since that time. We now have 12 reviews in place. In one 
proceeding, we are considering amendments to the labeling 
requirements for the alternative fuels and alternative-fueled 
vehicles, and here we are assessing how to eliminate the need 
for firms to apply redundant labels that are mandated by 
different agencies. In another instance, we have accelerated 
the review of our Hart-Scott-Rodino mechanism for mandating the 
notification and reporting of mergers, and we intend to 
initiate reviews of 11 more rules or guides by the year's end.
    Comments provided in this process I think overwhelmingly 
show business support for not only the mechanism we have used 
but for the rules and guides themselves, and our guidelines in 
particular stand out as means to reduce business burdens by 
clarifying what we regard to be the line that separates 
appropriate from inappropriate behavior, and in doing so, we 
think we have significantly reduced the cost of complying with 
what you know to be the exceedingly broad general mandates that 
appear in our statutes.
    My colleague will now explain recent measures that we have 
taken to enhance this review process, and I look forward to 
your questions and comments later. Thank you.
    Mr. Leibowitz. As Commissioner Kovacic has explained, we 
have long had a program for reviewing our guides and our 
regulations. You noted, Chairman Stearns, in your opening 
statement the importance of taking costs and benefits into 
account and we do do that. It is critically important to us. 
All of our work including the guides is done publicly with 
input from stakeholders.
    But earlier this year, we began examining what more we 
could do to improve these rules and really relieve undue 
burdens on industry, so as part of this effort and very much in 
the spirit of the President's Executive order, here is what we 
are doing. First, as Commissioner Kovacic noted, we are 
undertaking a review of 23 rules and guides. That is more than 
a third of all the rules we administer, rules and guides we 
administer. As announced in our Federal Register notice today, 
six of the rules under review have been accelerated to take 
into account for rapid changes in the marketplace. 
Congresswoman DeGette, you mentioned the Do Not Call Rule, and 
we recently strengthened the Do Not Call Rule, the 
Telemarketing Sales Rule, which Do Not Call is part of. It has 
200 million, actually now more than 200 million registered 
phone numbers, and Dave Barry has called it the most effective 
government program since the Elvis stamp.
    Second, our Federal Register notice asked for the public to 
comment on the FTC's 20-year program of reviewing its rules. 
Businesses have generally been, as Commissioner Kovacic noted, 
supportive of our regulatory reviews but we nevertheless asked 
a number of questions. For example, how often should the 
commission review rules and guides, how can we modify programs 
to make them even more responsive to the needs of consumers of 
businesses.
    Third, the FTC's new regulatory reform Web site just went 
live today because not everyone reads the Federal Register, 
although I know many of you do. It serves to provide--and many 
of us do. It serves to provide greater transparency for members 
of the public to understand our regulatory review efforts. It 
allows them to more easily comment on our ongoing rule reviews 
as well as on the FTC's process to review its rules. It also 
contains links to the 37 rules the commission has eliminated 
over the years as well as easy links to other resources like 
the new 10-year review schedule and the streamlined HSR, Hart-
Scott-Rodino, pre-merger form.
    Fourth, commission staff are seeking to identify statutes 
that might impose undue burdens on businesses or on the 
commission. Although a law's goals may be laudable, some 
statutes passed by Congress, as we know, can detract from other 
beneficial work, and I think Commissioner Moeller sort of 
alluded to this with respect to licensing issues. So one 
example is the FACT Act, which was passed in 2003, Fair and 
Accurate Credit Transactions Act, and it came out of the 
Financial Services Committee, and it required the FTC to 
conduct 30 separate rulemakings, studies and reports, 30. Some 
of those obligations of course make sense, but at one point 
around 2005, and this was shortly after I came to the 
commission, about a third to half of our financial practices 
staff, and these are the folks who go after mortgage fraud, 
were actually spending time writing reports because they were 
obligated, and we do what Congress tells us to do. Now, we have 
been writing reports since 1914, we are very good at it, but in 
fact our staff should have been spending more time going after 
the bad guys who were preying on American homeowners. So 
consistent with the goal of reducing unnecessary burdens, 
commission staff is now working to identify reports required by 
statute, and I think statutes themselves that divert businesses 
or commission resources from more pressing work, and the staff 
has identified sort of two such reports at least preliminarily. 
So year after year, the mandated ethanol industry report has 
shown that there is almost no concentration in the ethanol fuel 
market. The report doesn't appear to provide significant value 
to the public but it does impose burdens on small businesses 
because they have to respond to inquiries from the FTC, and so 
our staff is proposing that the report be eliminated or at the 
very least that the frequency be reduced to every 3 years.
    Additionally, while the FTC, the DOJ, the Department of 
Education are very involved in fighting scholarship scams, and 
for the FTC's part, we compile complaints, the annual report 
about scholarship scams, the annual report that the three 
agencies must jointly produce each year on the topic which is 
required by statute, doesn't appear to FTC staff to advance any 
real or significant goals.
    So Mr. Chairman, through these four initiatives, we are 
working to improve the FTC's review program. We will do our 
best going forward and working with this committee to ensure 
that all of our regulations protect American consumers while 
minimizing burdens on businesses. Thank you. Of course, we are 
happy to answer questions.
    [The prepared statement of Mr. Leibowitz and Mr. Kovacic 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Stearns. Mr. Kovacic, do you have anything briefly you 
would want to add since Chairman Leibowitz had most of the 
time?
    Mr. Kovacic. No, I don't. Thank you.
    Mr. Stearns. All right. With that, I will start with 
opening questions. I think before I start, I would like to put 
on the record Mr. Cass Sunstein's memorandum of February 2, 
2011. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. And I understand the ranking gentlelady has a 
document, ``Evaluation of Consumer Product Safety Database,'' 
that she would like to put in.
    Ms. DeGette. That is correct.
    Mr. Stearns. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. Chairman Leibowitz, before I start my 
questions, I think myself and staff are a little struck that 
you have voluntarily stepped up to the plate and sort of 
followed the spirit of this Cass Sunstein letter right there, 
and I think it is interesting when you look at the letter I 
just put in the record, he said in particular such agencies, 
talking about the independent agencies, are encouraged to 
consider undertaking retrospective analysis of the existing 
rules. You have stepped up to the plate to do it. Not all the 
independent agencies have done it. You have actually identified 
some areas that you think you have to do where you don't think 
you should be doing it, so I guess the question from Members of 
Congress is, what would you like us to do to help you?
    Mr. Leibowitz. Well, I think having oversight hearings like 
this is useful. It sort of shines a public light on regulations 
that do work because of course regulations are very important 
and ones that need to be modified. You know, look, we are a 
very bipartisan consensus-driven agency. We work together. We 
try to do regulatory reviews because we know they are really, 
really----
    Mr. Stearns. Well, you have identified some things that I 
think you would like some legislation to----
    Mr. Leibowitz. And yes, and we have identified----
    Mr. Stearns. We will follow up on that.
    Mr. Leibowitz. That would be terrific, Mr. Chairman.
    Mr. Stearns. Commissioner McDowell, I couldn't help but 
take your comments ``sober and clear manner'' when you talked 
about over 50 years regulations have gone up 800 percent. Is 
that true? That is 16 percent a year in the law of 72. That 
means every 4\1/2\ years these regulations are doubling. That 
is really staggering to think that that is occurring. Is that 
an accurate explanation of what you said, that regulations 
could possibly be doubling every 4\1/2\ years based upon 800 
percent increase for 50 years?
    Mr. McDowell. That would appear to be the case, yes.
    Mr. Stearns. Let me move, based upon what--I just put a 
letter in from Cass Sunstein where he said these independent 
agencies should step up and voluntarily--that is the spirit of 
what he is talking about. Obviously, President Obama has 
indicated he wants that done, and he didn't include the 
independent agencies but I would like, if you would, just to 
answer some questions yes or no just for the limited amount of 
time. So Commissioners Adler and Northup, yes or no, did the 
CPSC submit a regulatory review plan to OMB? Just yes or no.
    Mr. Adler. No.
    Mr. Stearns. OK.
    Ms. Northup. No, it didn't.
    Mr. Stearns. Yes or no, has the CPSC publicly committed to 
conduct a review of all existing regulations in accordance with 
the Executive order? Yes or no.
    Mr. Adler. As far as I am concerned, yes.
    Ms. Northup. No, I have not been informed that we are 
having any review.
    Mr. Stearns. OK. Mr. Adler, if you answer yes, as you did, 
why hasn't there been a notice so that Commissioner Northup 
would know about it if you answered yes?
    Mr. Adler. Well, first of all, with respect to submitting a 
formal plan to Cass Sunstein, he is actually a hero of mine as 
a former academic, but in order to preserve independence----
    Mr. Stearns. You said you have issued a public notice?
    Mr. Adler. What I said was, we had begun a retrospective 
review beginning----
    Mr. Stearns. But you haven't issued a public notice?
    Mr. Adler [continuing]. In 2004 that was temporarily 
suspended in 2007, and as soon as Chairman Tenenbaum gets back, 
I anticipate we will resume that process.
    Mr. Stearns. So you personally believe the CPSC should 
conduct a review?
    Mr. Adler. Oh, yes, sir.
    Mr. Stearns. OK. CPSC used to conduct regulatory reviews 
but has stopped in recent years. Is that a fair statement?
    Mr. Adler. They stopped in 2007 under then-Acting Chairman 
Nord, and I believe it was because of passage of the Consumer 
Product Safety Improvement Act, and just competition for 
resources within a very tiny agency.
    Mr. Stearns. OK. Commissioner McDowell, do you believe the 
reviews the FCC conducts under the Telecommunications Act take 
the place of the kind of look-back the President and this 
committee has asked for?
    Mr. McDowell. No.
    Mr. Stearns. You also state in your testimony that net 
neutrality is the first rule you would discard upon the agency 
review of its regulation. Is that true?
    Mr. McDowell. Yes.
    Mr. Stearns. I agree with you. Chairman Genachowski hails 
the net neutrality rulemaking proceedings as a test case for 
openness. However, I believe there were some bad precedents set 
in this proceeding. Commissioner McDowell, do you believe you 
were able to review the record in the net neutrality docket or 
were there items placed late into the docket that made it very 
difficult to review before the vote?
    Mr. McDowell. There are about 3,000 pages of documentation 
placed into the record in the final 2 or 3 days or 4 days.
    Mr. Stearns. And you had no opportunity to review those?
    Mr. McDowell. Well, there was opportunity but there wasn't 
enough time.
    Mr. Stearns. As a commissioner, when was the first time you 
saw the net neutrality order that you voted against on December 
21, 2010, and was it the same rules proposed in October 2009?
    Mr. McDowell. There were several drafts, of course, the 
first in October of 2009, but we got the final draft about 
quarter to midnight the night before the vote.
    Mr. Stearns. I understand although the agency passed its 
net neutrality rules in December, the docket to reclassify 
broadband services under Title II remains open. I think this is 
surprising, as Chairman Genachowski has made efforts to close 
other dockets opened at the FCC. Do you believe this docket 
should be closed?
    Mr. McDowell. Yes.
    Mr. Stearns. Are you aware of any reason why this docket 
remains open?
    Mr. McDowell. Only speculation. I have no firsthand 
knowledge.
    Mr. Stearns. Chairman Wellinghoff, in your testimony you 
say you support the goals of the Executive order and have 
directed commission staff to conduct a review of existing 
regulations with the goals of the Executive order in mind. Why 
didn't you submit a regulatory review plan to OMB?
    Mr. Wellinghoff. Because I believe that we weren't subject 
to the Executive order under OMB.
    Mr. Stearns. Notwithstanding what Cass Sunstein had sort of 
directly, the spirit of the law was for you to comply?
    Mr. Wellinghoff. I believe in fact we are complying with 
the spirit of the law by directing the regulatory review that I 
have directed staff to do.
    Mr. Stearns. Have you submitted a notice for public comment 
on this review?
    Mr. Wellinghoff. My general counsel has indicated that is 
not necessary to staff review.
    Mr. Stearns. Well, let me ask you personally. Do you 
believe FERC should conduct a retrospective review in the 
spirit of the Executive order?
    Mr. Wellinghoff. Yes, we are doing that. I have directed my 
staff to do that.
    Mr. Stearns. OK. My time is expired.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, my recollection of what Cass Sunstein said is 
that the independent agencies should comply with the spirit of 
the law, not the specific legal requirements, and I guess I 
will ask you, Chairman Leibowitz, since your agency is supposed 
to be the paragon of virtue today, have you submitted a plan to 
OMB? Has your agency submitted a plan to OMB?
    Mr. Leibowitz. We have not submitted a plan to OMB.
    Ms. DeGette. And that is because you are not legally 
required to, right?
    Mr. Leibowitz. And that is because we are not legally 
required to, although as you know----
    Ms. DeGette. But that doesn't mean you are not doing 
regulatory reform, correct?
    Mr. Leibowitz. No, no, no. I think as everyone knows, we 
are doing a lot of regulatory reform.
    Ms. DeGette. And Commissioner Adler, also your agency, 
although it hasn't submitted a plan to OMB, you are doing 
regulatory reform too?
    Mr. Adler. That is correct.
    Ms. DeGette. Thank you.
    Now, Chairman Leibowitz, something you said was very 
interesting to me. You talked about how a lot of the 
regulations that you do is a result of statutes passed by 
Congress directing you to do regulations, correct?
    Mr. Leibowitz. That is correct.
    Ms. DeGette. And you gave several examples of that, right?
    Mr. Leibowitz. Yes.
    Ms. DeGette. Now, Commissioner Northup, you talked about a 
lot of the regulations that the CPSC is promulgating as a 
result of the statute that Congress passed, correct? Like the 
lead standards and other regulations.
    Ms. Northup. That is correct.
    Ms. DeGette. So Mr. Chairman, one thing I am concerned 
about, you can't really talk about regulatory reform in a 
vacuum without looking at the statutes that Congress has passed 
but ask these agencies, and so I think there are two levels 
here. There is the regulations themselves, which may be overly 
burdensome, but there is also statutes that I think we should 
look at, and I know, Chairman Leibowitz, you had actually come 
up with a list of some statutes that you think could be 
streamlined so that the agencies, whether they are the 
independent agencies or not, could also streamline their 
regulations, correct?
    Mr. Leibowitz. That is correct.
    Ms. DeGette. Would you be willing to submit a copy of those 
statutes to this committee so that we could then look at those 
statutes within the purview of this committee and think about 
ways to fix them so that we can reduce the burden of 
regulations?
    Mr. Leibowitz. It sounds like very much a bipartisan effort 
on this subcommittee, and we would be glad to do that.
    Ms. DeGette. OK. For the rest of the commissioners who are 
here, I would just ask for a yes or no answer. Would you be 
willing to also submit a similar list of statutes that your 
agency deals with that you think could be streamlined so the 
regulatory process could be streamlined? Commissioner Adler?
    Mr. Adler. Yes.
    Ms. DeGette. Commissioner Northup?
    Ms. Northup. I have.
    Ms. DeGette. Oh, you have? Great. I would love to get a 
copy of that.
    Mr. McDowell?
    Mr. McDowell. Yes.
    Ms. DeGette. Chairman?
    Mr. Wellinghoff. Yes.
    Ms. DeGette. Commissioner?
    Mr. Moeller. Yes.
    Ms. DeGette. Chairman?
    Mr. Leibowitz. Yes.
    Ms. DeGette. And Commissioner Kovacic?
    Mr. Kovacic. My list is the same as Jon's.
    Ms. DeGette. OK. Great. This is a good effort down here at 
the end of this table.
    And I wanted to ask you, Commissioner McDowell, because you 
had listed off numbers of regulations. I don't think that you 
think that--first of all, are all those regulations that you 
listed--I don't know them by heart--are they all duplicative or 
unnecessary regulations, the ones you listed?
    Mr. McDowell. Are you talking about the number of pages I 
cited?
    Ms. DeGette. Well, you listed some different sections. You 
just threw out a whole bunch of regulations.
    Mr. McDowell. The sections I cited were statutory sections 
that gave us the power to deregulate on our own, and I also 
listed----
    Ms. DeGette. No, no, but----
    Mr. McDowell [continuing]. The forms----
    Ms. DeGette [continuing]. You said there--oh, the forms. 
Just because there is a form, doesn't mean that it is per se 
unnecessary, correct?
    Mr. McDowell. No, and I didn't imply that.
    Ms. DeGette. So the numbers of the forms that you listed, 
are those particular forms unnecessary in your view?
    Mr. McDowell. Not all of them necessarily.
    Ms. DeGette. OK. So you were----
    Mr. McDowell. That is what I said in my testimony.
    Ms. DeGette. That was kind of a figure of speech that you 
were talking about a lot of forms, right?
    Mr. McDowell. I think that my testimony speaks for itself. 
It is a lot of forms.
    Ms. DeGette. Well, here is my question to you. Have you 
compiled a list of regulations for your agency that you think 
are duplicative or overly burdensome?
    Mr. McDowell. Yes, ma'am, it is in my testimony.
    Ms. DeGette. OK. That is the comprehensive list. And has 
everybody else----
    Mr. McDowell. It is not the complete list but there is----
    Ms. DeGette. Could you get us your complete list? That 
would be really helpful.
    Mr. McDowell. Sure.
    Ms. DeGette. You know, along with our brand-new member from 
Colorado, Mr. Gardner, my neighbor to the north and others, we 
are trying to develop bipartisan legislation, and to be honest, 
as you see from these folks down here, regulatory reform is not 
a partisan issue. I mean, nobody wants to have overly 
burdensome regulations, and so I guess what I would ask 
everybody here from all of these agencies, as well as a list of 
statutes that you think lead to overly burdensome regulations, 
if you can give us a list of regulations that you think are 
overly burdensome, that would be helpful too.
    Commissioner Adler, would you be willing to do that?
    Mr. Adler. I am speaking only for myself, but for myself, 
yes.
    Ms. DeGette. OK. Commissioner Northup, I believe you have 
probably already done that.
    Ms. Northup. I have. It is part of my testimony but I have 
also previously sent to the Hill a list of----
    Ms. DeGette. If you could get that to our staff too, that 
would be great.
    And Commissioner McDowell?
    Mr. McDowell. Absolutely.
    Ms. DeGette. Mr. Chairman?
    Mr. Wellinghoff. Yes.
    Ms. DeGette. And Commissioner Moeller?
    Mr. Moeller. Yes.
    Ms. DeGette. And then----
    Mr. Leibowitz. We certainly will, although we have 
eliminated a lot of regulations. We do ongoing regulatory 
reviews pretty rigorously.
    Ms. DeGette. OK. Thank you very much.
    Mr. Stearns. The gentleman from Texas, Mr. Barton, is 
recognized for 5 minutes.
    Mr. Barton. Well, thank you. I would stipulate that all the 
individuals before us are paragons of virtue today because they 
are subject to the Energy and Commerce Committee and that 
recognition makes you a paragon.
    I think we need to repeat, this is kind of a hearing that 
is unusual in that this Executive order that we are asking you 
folks to comment on explicitly excludes you, and as we all know 
in Washington, not too many commissioners and chairmen 
voluntarily comply with things that they don't have to. Those 
of us that have been around a little bit understand that.
    So my first question is, what should this committee do in 
the absence of statutory language that would force compliance 
with something similar to the Executive order? Should we pass 
some sort of a statutory requirement that you all do similar 
things that the President says in his Executive order or should 
we let the sleeping dog lie? Let us try Chairman Wellinghoff. 
He doesn't come before us too often.
    Mr. Wellinghoff. Thank you, Mr. Barton. I don't have any 
specific recommendation for you, sir. I think in fact, as I 
have indicated in my testimony, we are going to comply with the 
spirit of it and in fact have a staff review, and I think our 
agency certainly as an economic regulatory agency, each and 
every regulation that we institute do in fact take into account 
whether rates are just and reasonable and services are, and we 
also provide the industry with an opportunity to fully comment 
on those regulations and determine ultimately whether the 
regulations are burdensome based upon those comments and 
information that we gather. So I don't have any specific 
recommendation for you.
    Mr. Barton. Mr. Leibowitz?
    Mr. Leibowitz. I would say this. You know, we comply with 
the spirit of the Executive order. I think it is a terrific 
Executive order. We go beyond it because I think only four of 
our rules would be sort of within reg flex, and we do reg 
reviews of all of rules and all of our guides, but I also think 
it is important to preserve the independence of agencies too, 
and as you can see, you know, agencies provide--by having 
members not of the President's party, agencies as a sort of 
institutionalized matter provide checks and balances, and they 
are independent voices. And so I understand what you are saying 
because I think you believe that the Executive order has a lot 
of good things in it, and we agree.
    Mr. Barton. The Republicans think what the President says 
he is doing, we are not sure he is doing it, but what he says 
he wants to do, we think is a good thing. And so you folks say 
the right words, you are comply with the spirit and you agree 
in general, but the truth is, you are not going to do anything 
unless you absolutely have to. The question is, should I get 
with Ms. DeGette and Mr. Stearns and put together a bipartisan 
bill that would make it a requirement?
    Mr. Leibowitz. Let me defer to Commissioner Kovacic because 
I know he wants to add something here.
    Mr. Kovacic. Congressman Barton, I would like to quarrel 
with your suggestion that we only do what the gun at the head 
compels us to do. I was a junior case handler at the FTC for 
the first time in 1979, and I think it has been in the DNA of 
the agency internally, partly because of our structure, partly 
because we have a large team of economists to do this kind of 
introspective work as long as I have known the agency, and I 
would emphasize, I think that would be very constructive would 
be two things. First is for us to have perhaps a more frequent 
conversation in settings like this with your staff about we do. 
In 2008, 2009, we did a comprehensive self-study of our agency. 
We benchmarked ourselves with 40 of our counterparts overseas. 
We talked extensively with our counterparts at Federal, State 
government, and we did a substantial publicly available 
assessment of how we are doing. I think it would be helpful on 
one front to have a more extensive continuing conversation with 
the committee about the measures we do take that aren't 
obliged, and the second is, to go back to something that 
several of you have mentioned----
    Mr. Barton. You are going to have to be quick, because I 
have got 20 seconds and I have got one more question.
    Mr. Kovacic. The other thing is to think more in the design 
of legislation itself about what burdens it will impose.
    Mr. Barton. I want to ask Commissioner McDowell--I can't 
let him sit here and not ask him some question. The pending 
regulation regulating the Internet under Title II is still 
pending at the FCC. Do you have any information for us what 
Chairman Genachowski intends to do with that? Is he going to 
withdraw it or push forward with it? What is your view on that?
    Mr. McDowell. Sir, just to be clear, the open proceeding to 
regulate the Internet under Title II, I don't have any 
information as to whether or not he is going to withdraw it or 
what the reasoning might be for keeping it open.
    Mr. Barton. Don't you think he should withdraw it?
    Mr. McDowell. I do.
    Mr. Barton. That is the right answer. Thank you, Mr. 
Chairman.
    Mr. Stearns. I thank the gentleman.
    I think the next speaker on this side is Mr. Green. You are 
recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    First, I want to take the opportunity to thank all our 
commissioners for being here. Those of us who have been on this 
committee a number of years welcome back our colleague from 
Kentucky. What you do every day is very important in ensuring 
the health and safety of our citizens, particularly consumer 
protection, but everything. FERC, obviously from Texas, FERC is 
very important to what we do, and the FCC and of course FTC.
    Mr. Leibowitz, in your testimony you discuss the children's 
online privacy protection rule or regulation your agency 
promulgated that helps protect privacy of children online. Can 
you please tell us more about this rule and does it ensure that 
children are protected while using the Internet?
    Mr. Leibowitz. Well, it was a bipartisan piece of 
legislation passed out of this committee, but we also 
understand that the Internet has changed and technology has 
changed the way children use the Internet dramatically in the 
last few years, and that is why we actually moved up our 
regulatory review of COPPA by 5 years, and so we are working 
with stakeholders. We put out a sort of notice of inquiry and 
we will have proposed COPPA improvements, draft legislation. We 
always put out--I am sorry, draft rule. We put that out. We 
take comments again, hopefully within the next few weeks by the 
end of the summer.
    Mr. Green. And I know for all the agencies, and this is 
just an example, there is a lot of concern about agency 
regulation, but so much of what you do is in response to 
legislation, whether it is new legislation or previous 
legislation or may have been amended, and this is a good 
example of a rule that frankly as a father, or a grandfather 
now, I can't possibly monitor what my grandchildren may be 
doing on the Internet but we do need to have protection from an 
entity other than just the family.
    Mr. Leibowitz. Right, and the whole notion of COPPA, which 
is that if you are 12 years old or younger, you shouldn't be 
able to give consent to have your personal information go to 
companies on the Internet, you need to have parental consent, 
is a really good one, and that is the bedrock of COPPA, the law 
you passed.
    Mr. Green. Some of us might move that age a little higher, 
but I appreciate it.
    Mr. Leibowitz. Some of us might encourage you to do that.
    Mr. Green. And beyond issuing standards that require safety 
such as that, you have done children's cribs. Consumer 
protection safety works on manufacturers to organize recalls 
and remove dangerous products from the market.
    Mr. Adler, a recall authority has the potential to save 
lives, doesn't it?
    Mr. Adler. It certainly does, sir, and I believe we have 
saved many lives.
    Mr. Green. And other agencies have tools to help consumers 
too. For example, the FCC has taken steps against consumer 
fraud and deceptive practices through its enforcement powers.
    Mr. Adler. All the time.
    Mr. Green. Mr. Leibowitz, in your understanding, in fiscal 
year 2010 your agency initiated 66 court cases to protect the 
rights of consumers. How valuable is that enforcement action?
    Mr. Leibowitz. Well, we think they are critically--we are 
principally an enforcement agency. We do rules, mostly when you 
tell us to, but what we really do on both the antitrust and the 
consumer protection side is go to court to stop unfair or 
deceptive acts or practices and to stop people who engage in 
unfair methods of competition, and we have brought a variety of 
cases protecting privacy, stopping mortgage scams. That is what 
we do.
    Mr. Green. The lawsuits you file can have real impact on 
individual lives. Is that correct?
    Mr. Leibowitz. Yes, I mean, often getting redress if we win 
a case or if we settle one for injured victims, yes.
    Mr. Green. So there is a positive byproduct of agencies 
issuing regulations and enforcing regulations that are based on 
what Congress passes and the President signs?
    Mr. Leibowitz. Absolutely.
    Mr. Green. Mr. McDowell, I was pleased that the chairman of 
the FCC announced that the commission would comply with the 
President's Executive order on regulatory review. It is 
important that that review is as comprehensive as possible, and 
I am looking forward to seeing the streamlining of the FCC, 
which I am sure as commissioners you would love to have. Given 
the constant change and the growing competition in the 
communications market, do you agree that the FCC should be 
diligent in reviewing and potentially eliminating regulations 
that no longer protect the public interest?
    Mr. McDowell. Absolutely, in a comprehensive way.
    Mr. Green. The biannual review requirement is the 
commissioner's major tool to accomplish this. Is this correct?
    Mr. McDowell. It is, but only for telecom companies, not 
for media companies or information service providers, etc.
    Mr. Green. Over the past 10 years, the commission has 
complied with its statutory duty to prepare and submit a 
biannual review?
    Mr. McDowell. Yes, sir.
    Mr. Green. Do you believe the biannual review requirement 
should be amended to include other entities?
    Mr. McDowell. I do.
    Mr. Green. And would you submit your recommendations for 
the record?
    Mr. McDowell. Yes, sir, and it is my testimony but I will 
reiterate it too.
    Mr. Green. OK. I appreciate it.
    Mr. Chairman, I will yield back my time.
    Mr. Stearns. The gentleman yields back his time, and the 
gentleman from Nebraska is recognized for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman. Let me first start by 
thanking Jon Leibowitz. First of all, I like the little play 
between the two of you because it kind of signals that you work 
with both sides and work together, and Mr. Kovacic, the way 
that you have answered questions, you are telegraphing or 
telling us that you two actually work together, and I really 
appreciate that. I think that is the way America expects our 
agencies to work. So I want to thank you for that. And Jon, you 
are doing a good job. I like that you are actually----
    Mr. Leibowitz. Is this a setup? Because----
    Mr. Terry. No, there is no ``comma but'' coming here. I 
like that you are already attacking the issue of finding the 
regulations that are not very useful anymore and don't serve 
the purpose. So good job. That is exactly what my bill that is 
in a different committee wants every agency, independent agency 
to do, and it is to provide the flexibility.
    Commissioner Northup, we can sit here and say good job on 
cribs but it is amazing to me that we are sitting here talking 
about bicycles and ATVs and large cars and trucks that, you 
know, 6- and 7-year-olds play with but don't eat but yet we are 
regulating them.
    So you have to admit, Mr. Adler, there is some absurdity to 
the law. Do you agree with the rules and regulations----
    Mr. Adler. I think that Congress basically got the law 
right, and by the way, what you are talking about is a mandate 
that Congress imposed, not that the commission imposed, but 
there are always some portions of the law that need to be 
reexamined, and the issue you raised with bicycles and ATVs is 
one of those that we are actually taking a look at.
    Mr. Terry. And in regard to the absurdity of Congress's 
mandate--and by the way, I list this as one of those votes that 
I thought if I had to take back, we should have really fought 
harder on this one to make it a better law.
    So Anne, do you have specific requests for us of where we 
should change the Consumer Product Safety Improvement Act?
    Ms. Northup. Well, let me just said if I had been there, I 
wasn't, but I can imagine that I would have voted for the law. 
I certainly would expect I would have. When I was being 
confirmed by the Senate, I read the law. It seemed like such a 
good law. I was supportive. So many of the Senators at the 
confirmation hearing said we want you to use all the 
flexibility we gave you to rationalize this law; we believe 
that bicycles and ATVs and scooters--I mean, it goes way beyond 
those two--carving them out may be some people happy, but like 
you say, trucks kids play with, the axles in those trucks, if 
they bend, what good are they, but the problem is, when you try 
to--when we have tried to find flexibility, there just hasn't 
been three out of five votes for that. So it is going to take a 
change in the law. The discouraging part is that even the 
commissioners can't seem to agree how sweeping a change they 
would support but we desperately need----
    Mr. Terry. Well, do you have flexibility on, for example, 
third-party testing? I think there was an incident when this 
bill was being developed by a toy manufacturer that 
manufactured in China that perhaps there was accusations that 
their data in-house was not correct, so if you are a large 
international company, mandating third-party testing when you 
found out your in-house testing was inaccurate, but do it on a 
10-person company in Omaha, Nebraska, on tee shirts where on 
every size and every color doesn't make sense to me. Do you 
have the flexibility to----
    Ms. Northup. No, we don't have that flexibility.
    Mr. Terry. Is that an area that we should look at?
    Ms. Northup. It is an area. In fact, today there are vast 
new ways to enforce the law. We track things coming in from 
overseas, tools that we didn't have in 2008. And I would give 
the commission the ability, the flexibility to require third-
party testing where they think there is risk and they think it 
will be effective to enforce it. It is one of the proposals I 
have made. It would make a huge difference in the cost of this 
because as you say, every small business is telling us when 
they have to third-party test every single component 
individually for lead, when they have to then do random----
    Mr. Terry. Or phthalates.
    Ms. Northup [continuing]. When they have to do phthalates, 
when they have to do it to the toy standard, it is extremely 
expensive.
    Mr. Terry. Well, and one quick point on that. Do you guys 
try and obtain data, for example, when the third-party testers 
are telling a small company that prints motorcycles on tee 
shirts that asking that they test the cumulative effects of 10 
tee shirts of the same color and size, do you ask, produce one 
piece of evidence that a child has eaten ten tee shirts?
    Ms. Northup. The problem here is that if there is, say, a 
dot of blue paint on that, they need enough blue paint to test 
to have a quantity of blue paint. I will tell you, I have 
pushed for a component part testing allowing somebody to--and I 
think we are going to pass this, and this is the flexibility 
that I think would be--is probably the most flexible regulation 
we have where you can take your blue paint and test it and then 
you can put it on every tee shirt and you don't have to tear up 
the tee shirt.
    But when you talk about bikes, for example, that have 141 
parts to them and every part, every time you change the 
shipment of spokes, the shipment of pedals, you have to have a 
new test for that, then you have to change the label so it 
reflects the component test that was used, it is very 
complicated.
    Mr. Stearns. The gentleman's time has expired, and Ms. 
Schakowsky, the gentlelady, is recognized for 5 minutes.
    Ms. Schakowsky. Thank you.
    You know, I think we all here agree that it is important 
for regulatory agencies to be efficient and mindful of the 
impact of regulations on businesses, and I think we all agree. 
I helped negotiate this bill. I am very proud of the 
legislation. But Henry Waxman introduced legislation that would 
deal with some of the unintended consequences. I think maybe we 
as a committee ought to take another look at that legislation, 
and I know that the commission would be willing, as I 
understand it. Is that not true, Mr. Adler, on behalf of Mr. 
Tenenbaum and Ms. Northup? I think we ought to look at that.
    But let me just say, to go back to risk-based assessment, 
that is what we had before, and I think that what we have found 
is that why we regulate and that is because time and time again 
industry has shown that they aren't going to police themselves, 
and that we need to do it, and one of the issues is the 
industry standard for cribs, and we had a press conference with 
the attorney general in Illinois on June 28th when the crib 
standard went into effect, and I congratulate all of you on 
that, although I have to say, I was disappointed to see the 
press release that went out that, you know, we didn't give 
people enough time when of course you had said earlier that you 
wished it had gone into effect the next day so that parents 
could be sure when we put our kids to bed alone or 
grandchildren that they are going to be safe.
    So let me ask you, Mr. Adler, do you consider the crib 
standard to be an example of a victory for the Consumer Product 
Safety Improvement Act?
    Mr. Adler. I think it is one of the finest things that has 
been done under the Consumer Product Safety Improvement Act. It 
is taking children who are our most vulnerable involuntary risk 
takers who are put in cribs that have to be the safest place in 
the home because they are there for long periods of time with 
no supervision, and it is saying that we have the most 
stringent safety standard in the world. I think it is really a 
magnificent achievement and I commend the Congress for 
directing us to----
    Ms. Schakowsky. And in fact, in the regulation, you did 
give some places that might have cribs some time to comply. Is 
that not true?
    Mr. Adler. We did, and I am delighted to respond to the 
issue that Commissioner Northup and I disagree on with respect 
to the independent retailers. I think that we had a group that 
said we need more time but we had another group that said 
please, please, please do not give more time, we have compliant 
cribs and we are prepared to sell them right now.
    Ms. Schakowsky. I ant to mention on the database, I have an 
op-ed from a gentleman in New Jersey whose daughter was injured 
by a crib in 2007. He called the manufacturer and asked if they 
had any other complaints about the crib and was told no, there 
weren't any, but actually found out that there were 84 reports 
to similar problems. Fortunately, his daughter was not hurt 
very bad.
    So Mr. Adler, the public information database was created 
by the CPSIA because previously, manufacturers would not, and 
the CPSC could not share lifesaving information with consumers. 
Is that correct?
    Mr. Adler. That is correct. I think the database is one of 
the finest pieces of the Consumer Product Safety Improvement 
Act.
    Ms. Schakowsky. So do you think that it actually is serving 
the function of making consumers more aware?
    Mr. Adler. It is, and I might just quickly point out that 
it is modeled after a similar database at the National Highway 
Traffic Safety Administration. Ours actually has more due-
process rights for manufacturers than they do at NHTSA, and I 
think it is a very balanced piece that provides the proper 
attention to disclosure to protect consumers with the rights of 
manufacturers to make sure that the information is correct.
    Ms. Schakowsky. Do you think that Congress should force the 
Consumer Product Safety Commission to do a full cost-benefit 
analysis every time it takes steps to protect children from 
harmful products no matter how dangerous those products are?
    Mr. Adler. I actually think Congress got it right. Congress 
didn't say regulate with no attention to the economic impact. 
Congress said that when we regulate with respect to children, 
that we need to follow the dictates of the Regulatory 
Flexibility Act, and one of the things I like about that is, it 
is focused on vulnerable small business. That is the group that 
we are supposed to make specific economic findings with respect 
to when we are trying to protect our most vulnerable consumers.
    Ms. Schakowsky. I think I will yield back the 2 seconds I 
have. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentlelady. The gentleman from 
Texas, Dr. Burgess, is recognized for 5 minutes.
    Mr. Burgess. Thank you, Mr. Chairman, and Commissioner 
Northup, it is good to see you here.
    Ms. Northup. Thank you.
    Mr. Burgess. It is amazing you got confirmed by the Senate, 
so congratulations on that. What an accomplishment.
    And I apologize for being late. We had a Health 
Subcommittee hearing going on simultaneously. Can you give us 
an idea of the scope of the effect on the retail industry on 
this crib ban that has now gone into effect? I mean, I realize 
that the other commissioner said a cost-benefit analysis is not 
necessary but still, there has got to have been an impact.
    Ms. Northup. Let me just say, first of all, the regulatory 
flex analysis that we do is only--it is like checking a box. 
Sometimes it is a paragraph, sometimes it is a page. It says 
that small businesses are going to be affected, we are going to 
put some out of business, but we go right ahead and regulate. 
There is nothing, there is no requirement that it be cost-
effective.
    What happened with the crib standard was, is that we issued 
it and we considered at the request of manufacturers how long 
it would take for them to get the new qualifying cribs tested, 
third-party tested, and into the market. Six months was 
decided. We didn't really think about retailers. There was one 
sentence in our rule that said we think 3 to 6 months is enough 
for retailers too. Unfortunately, it took longer to get them 
developed, it took longer to get them tested, and by the time 
they got them to the retail stores, the retail stores, some of 
the orders they had placed last November arrived a week before 
the new standard took effect. They were not third-party tested, 
and so they were junk to them. How many? Well, we know that one 
group of retailers that did a survey had 17,000 of them. We 
know that we called five, not our biggest stores but five major 
retailers; they had 100,000 as of the 1st of June. That comes 
to about $32 million worth of materials that will have to be 
thrown away if they are not--and these are not drop-side cribs. 
These are not even cribs that are almost identical to the 
standard. They haven't been third-party tested or certified. 
But the new crib standard that went in in 2009 was the basis of 
our crib standard. And let me just say, if these are unsafe, 
then why we would have allowed daycare centers, the motel-hotel 
industry, leasers 2 years before they had to place them? It is 
because we did not believe they were unsafe.
    Mr. Burgess. That is a valid question.
    In the winter of 2008, it was kind of a bleak time up here 
on the Hill, and with no thought to my personal safety, I took 
a trip to the CPSC and looked at the testing facility. It is 
remarkable in that it is very Spartan. There are certainly no--
--
    Ms. Northup. We have a new one now.
    Mr. Burgess. Oh, you do have a new one?
    Ms. Northup. Yes. We just moved 3 weeks ago.
    Mr. Burgess. This was an old missile base, as I recall, 
when I went out there, and I was struck that the folks there 
were working diligently and they were quite inventive and 
innovative, and I actually took a great deal of confidence away 
from that, but at the same time, I will never forget sitting in 
that press conference that the people on the youth motorcycle 
thing put together a couple of years ago, a beautiful little 
blond-haired boy about 10 years old in full motocross regalia 
standing at the microphone and said Mr. Congressman, if you 
will let me ride my bike, I promise I won't eat the battery 
when I am finished. And you know, that is the level of 
absurdity to which we have sunk.
    Ms. Northup. This testimony today has been fascinating, 
hearing the agency talking about the DNA, the DNA of the CPSC 
is really fabulous, but that has all changed because of the 
Consumer Product Safety Improvement Act and the rulemaking that 
we have done in compliance with levels and requirements that 
are unrelated to risk. For years this agency was risk-based, it 
worked with the Voluntary Standards Committee, which is very 
important because products emerge, they evolve, and these 
voluntary standards keep up with these evolutions. Any time we 
didn't think they were strong enough, we had the right to 
intervene, and we did, as my colleague pointed out.
    Mr. Burgess. Let me just briefly, I do need to ask our 
friend from the Federal Trade Commission a question on the--
familiar with the ACO--if you read the Federal Register, you 
may be aware that there was a health care law signed last year 
that has caused some of us some grief, and when this new 
accountable care organization reg came through, did you guys 
participate in the writing of that regulation?
    Mr. Leibowitz. Well, we participated. It is principally 
from CMS, as you know, and we participated----
    Mr. Burgess. Well, what I know is, when we had the 
briefing, they had one guy from CMS and two guys from the 
Federal Trade Commission.
    Mr. Leibowitz. One from the Federal Trade Commission and 
one from the Department of Justice because we wrote it with the 
Department of Justice, or maybe two from the Federal Trade 
Commission and one from the Department of Justice. So we did 
the antitrust component, and their draft guys were taking 
comments, we did a workshop. And can I just say one other 
thing? And I will turn it back over to you.
    We believe that competition is critically important to 
health care, not regulation, and so what we are trying to do 
with the ACO implementation--you know, ACOs are a brave new 
world and very uncertain, but what we are trying to do is make 
sure that competition principles remain.
    Mr. Burgess. Look, you give the antitrust exemption to 
Major League Baseball, the National Football League, but here 
is the deal. The 21st century health care model, and this was 
started in the previous Administration with Secretary Leavitt, 
has been continued with Don Berwick at CMS, and now we have got 
an ACO rule that doesn't work in actuality. The rule is--you 
put something that was working in practice and rendered in 
invaluable in theory, and that is the problem that I see with 
what you have done.
    Mr. Leibowitz. Well, look, we have certainly--one of the 
reasons we put out draft guidance--and again, we have a small 
component of it. It is only the competition portion. One of the 
reasons why we put out draft guidance and why we are meeting 
feverishly with all stakeholders is, we want to make sure that, 
you know, to the extent that there is an uptake on ACOs, the 
notion, you pick up vertical efficiencies by putting together, 
as you know, different doctor practices, lab testing facilities 
and a hospital, is not a bad one. We want to make sure that you 
don't have one dominant provider so that it soaks up all the 
efficiencies, and we also----
    Mr. Burgess. What about the Karen Ferguson? I mean, you 
give a dominant provider status to insurance companies.
    Mr. Stearns. The gentleman's time has expired.
    Mr. Leibowitz. We will just point out, we cannot review the 
insurance industry. We are exempted from that. But yes, I hear 
what you are saying. I don't think we are in disagreement. We 
are going to try and make it work better.
    Mr. Stearns. The gentlelady, Ms. Christensen, is recognized 
for 5 minutes.
    Mr. Christensen Thank you, Mr. Chairman, and I want to also 
add my thanks to all of the commissioners for being here, and 
as I listen to the testimony, it seems that all of the 
independent agencies that you represent have been undergoing 
some regulatory reform and even though you are not under the 
Executive order, that you have really gone beyond what you had 
been doing to keep in spirit with the Executive order, and I 
commend you for that.
    I sat on the Small Business Committee for about 10 years, 
and each of you is governed by the Regulatory Flexibility Act, 
and so you are required to look at how the impact of your 
regulations on small business reviewed. I was going to ask 
Commissioner Northup, my classmate----
    Ms. Northup. Yes.
    Mr. Christensen [continuing]. About the effectiveness, but 
you have already kind of said that it is not effective. Is it 
the experience of the other commissioners that the Regulatory 
Flexibility Act does not do enough to protect small businesses?
    Mr. Adler. I don't agree with my colleague about that. I 
think that especially with respect to the impact of the 
Regulatory Flexibility Act on our agency, I think it has been a 
very good provision. I was just reviewing section 604 of the 
Regulatory Flexibility Act, and to me, it is a smaller but 
focused cost-benefit analysis and it is something I think the 
commission has done very conscientiously.
    Mr. Christensen Did I misinterpret what you said?
    Ms. Northup. No. It is often just a paragraph in a long 
rule, and even if we find that it will impact small businesses, 
it is not even--it doesn't require us to decide it is still 
worth going forward to make any changes to our rules. It has no 
impact on the rules that I--one or two maybe but very few that 
I can remember ever.
    Mr. Christensen Does anyone else have that experience that 
RFA----
    Mr. McDowell. I find it to be toothless, and if you look at 
it from an appellate perspective, the appellate courts agree, 
there is really nothing the courts can do to make agencies 
change their rules based on the RFA.
    Mr. Christensen That would be very disappointing, but it 
seems as though most agencies have had--most of the commissions 
have had good experience with the act.
    Mr. Kovacic. I think, Madam, that it has some limited 
effect in focusing our attention on things that are important 
but I think there are a number of other things we have done 
that have tended to be more significant and have come from 
within, and we would be glad to share those with you at your 
pleasure.
    Mr. Christensen Thank you. And what I have been hearing is 
that most of the commissions have gone beyond what really has 
been required, and I appreciate that.
    Commissioner McDowell, on June 20th, you wrote a letter to 
Chairman Genachowski offering several recommendations on how 
the FCC should be reformed. You suggested reforming it to be 
more transparent, efficient, accountable and fiscally 
responsible, and from prior testimony to date, we have learned 
that Chairman Genachowski has proactively implemented some of 
those changes to facilitate your suggested reforms. Through 
these reforms, the FCC has improved external communications by 
creating a more user-friendly Web site which includes providing 
live streams of all public workshops and meetings. Do you think 
this new Web site has enhanced public participation and access 
to FCC activities?
    Mr. McDowell. Well, the FCC's Web site right now is a bit 
controversial. It depends on which segment of the audience that 
uses it you ask.
    Mr. Christensen You don't think that it has enhanced public 
participation?
    Mr. McDowell. Certainly in general, I think, Chairman 
Genachowski has taken some discreet steps on an ad hoc basis 
but I would like to see more comprehensive reform done.
    Mr. Christensen But the FCC has also made effort to collect 
broader input from the public and industry, which included 
having more than 85 staff-led public forums and reinvigorating 
external advisory committees. Do you think these efforts have 
allowed for an increase in public participation?
    Mr. McDowell. Absolutely.
    Mr. Christensen In fact, you have had several workshops on 
the national broadband plan to discuss potential reforms to the 
Universal Service Fund. Do you think that those workshops have 
been helpful?
    Mr. McDowell. They have, certainly.
    Mr. Christensen OK. And although the FCC is not subject to 
President Obama's Executive order on regulatory reform, the FCC 
initiated their own look-back process which also is included in 
the statute. According to a letter Chairman Genachowski sent to 
Chairman Upton and Chairman Walden, this effort has resulted in 
the agency's eliminating and/or revising 49 regulations and 
identifying more than 20 sets of unnecessary data collection 
requirements for possible elimination. Is that correct?
    Mr. McDowell. I don't know. I haven't seen the list of the 
49 or the 20, so I am not quite sure.
    Mr. Christensen Does it sound reasonable?
    Mr. McDowell. And I don't know if some are mainly data 
collection. I think the proceeding, as I understand, under 
section 11 that was initiated really was focused primarily on 
data collection, although it has general language in there, but 
the thrust of it was data collection and not just a 
comprehensive review of all of our rules that apply to all the 
entities regulated by the commissioner.
    Mr. Christensen Well, our information is that 49 
regulations and identifying maybe 20 sets of unnecessary data. 
So it seems to me that the FCC's current leadership has been 
really successful in implementing new ideas on how to improve 
current regulations, and I look forward to hearing more from 
the commission and their continued focus on ensuring public 
participation and open exchange of ideas that improve the work 
of our government.
    My time is up. I yield back.
    Mr. Stearns. I thank the gentlelady, and the gentleman from 
California, Mr. Bilbray, is recognized for 5 minutes.
    Mr. Bilbray. Thank you.
    Mr. Adler, you were bringing up this issue of trying to 
make sure that we have the safest cribs in the world, as we 
say. What percentage of the cribs that are on the market in the 
United States have elevated platforms or are made of a hard 
material--wood, plastic, steel?
    Mr. Adler. I don't know the answer to that. I would be 
delighted to----
    Mr. Bilbray. Would it be fair to say the overwhelming 
majority of them have elevated platforms or are made of hard 
material?
    Mr. Adler. I think that makes sense.
    Mr. Bilbray. And wouldn't you agree that any elevated 
platform or material when you have a child, you have a 
potential for injury because of dropping off of an elevated 
platform or injury because some activity that may end up 
meaning impact with the hard material, so there is a risk in 
both of those design features?
    Mr. Adler. That is an excellent point, and the commission 
standard is addressed to what we consider the unreasonable 
risks, but I don't think we could make that a fatality-free 
zone under all circumstances.
    Mr. Bilbray. OK, and that is the point, is what is a 
reasonable level. You know, you could sit there and say that 
because we do not require all cribs to be on the ground, we do 
not require all cribs to be made of inflated material or soft 
material, it is not the safest it could be. It is 
reasonableness, and I think that is a determining factor. 
Wouldn't you agree?
    Mr. Adler. I would absolutely agree with that, but what we 
have done is make the cribs that are produced in the United 
States the safest within the types of fatalities that we think 
that----
    Mr. Bilbray. I just think that--and I appreciate that, 
making sure that, you know, we make these claims and these 
statements and elected officials or as public officials but it 
is reasonableness that really is the determining fact, and that 
is where the judgment issue has to come down.
    Let us talk reasonableness, Mr. McDowell. You recently 
discovered that the so-called Fairness Doctrine was still on 
your books, almost a quarter of a century after it was 
abandoned. Do you think it is reasonable that a federal agency 
has basically misinformation, if not, some people may say the 
lingering lie of the Fairness Doctrine on your books? Do you 
think it is reasonable that almost a quarter of a century after 
a regulation isn't there, it still is being stated as being 
part of the process?
    Mr. McDowell. I don't think it is reasonable that the 
language remains on the books, if that is your question.
    Mr. Bilbray. And what are we doing to make sure that this 
mistake isn't throughout your regulatory guidelines so the 
public and the business community can read something and find 
out is it the gospel or isn't it?
    Mr. McDowell. Exactly. If the commission has opted not to 
enforce the rule, the rule should disappear from the books.
    Mr. Bilbray. OK. Let us get down to the fact that the FCC 
has taken nearly 12 months--and I will say this. I spent 
decades in regulatory agencies so I understand how tough it is 
when you are in a regulatory agency of trying to take the 
theory of legislation and make it a practical application. But 
when you have got decisionmaking that is delayed for over 12 
months, you know, and there is nothing on the books that 
requires you to make a decision in what is a reasonable time 
period, don't you think--is there anything to make you make a 
decision in less than 12 months?
    Mr. McDowell. Certainly, statutory language helps. There is 
nothing like the force and effect of law. But even that 
sometimes is not observed. For instance, the video competition 
report we are required to produce every year, the last time I 
think I voted on one was in 2007.
    Mr. Bilbray. OK. So in other words, we need to basically 
tighten it up but also have some enforcement on that 
tightening. I will just tell you, somebody that built the light 
rail system in San Diego, we abandoned any federal funding just 
so we could avoid the regulatory oversight, and we built that 
system under budget and on time because we didn't take federal 
funding, and I think that is one of the things we don't talk 
enough about. People want transit, they want this, they want 
that. Sometimes the most important component to get the public 
the services that you claim you care about is getting the 
federal regulatory agencies out of the way so you can get the 
job done, and that is why I would just like to state down the 
line.
    Mr. Moeller, you were talking about hydroelectric. When you 
are reviewing the hydroelectric and the relicensing, are you 
required to consider the no-project option and the 
environmental damage done if you don't approve it? Things like 
climate change, emissions, pollution, and that kind of thing, 
are you required to basically take a look at this and 
understand that if you do not approve it, it will have an 
adverse impact because the alternative-energy capabilities or 
generation is going to cause pollution where the hydroelectric 
is not.
    Mr. Moeller. Well, typically, I think of the no-action 
alternative as truly no action as opposed to perhaps modifying 
or taking out a dam and then the consequence being that it 
would be a result of more generation that would be less 
environmentally friendly than hydro. But typically I think it 
essentially doesn't get to that. It is a long settlement 
process where----
    Mr. Bilbray. But you don't have a specific requirement that 
you have to consider offsets for shutting down a plant?
    Mr. Moeller. Not that I am aware of.
    Mr. Bilbray. Well, that is one of those things that I think 
we need to talk about, Mr. Chairman, more, is that, you know, 
when you don't improve a road improvement, you should have to 
offset the pollution caused by the congestion rather than 
always we look at all of the emissions that happen for 
construction. But the no-project option and the environmental 
and economic and social impact of that need to be considered 
but the environmental impact is one that if individual a real 
hypocrisy that you want to have offsets for the emissions 
caused for building the project but nobody who is stopping the 
project has to account for the environmental pollution by not 
finishing the project, and I yield back, Mr. Chairman.
    Mr. Stearns. I thank the gentleman, and the gentleman from 
Louisiana, Mr. Scalise, is recognized for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
holding this hearing. I appreciate all of the commissioners who 
have come here to participate and talk about the costs of 
regulations, especially how it impacts people, and when you 
look at lot of the intent and what is usually said about 
regulations that come out, they all sound really good and, 
usually the name of a bill, you can tell how bad it is by how 
good the name sounds. It is usually an inverse proportion.
    And so as I talk to people, our economy is still very 
sluggish right now, and of course, in many cases, when you talk 
to small business owners, when you talk to American job 
creators, as many of us do, the first thing they will tell you 
that is the biggest impediment to job creation in America are 
federal regulations. You know, all of the other things that get 
in their way, they can manage. It seems like the federal 
regulations have become the biggest burden to creating jobs in 
America today, and so when you look at some of these 
regulations, you definitely want to look and see what is the 
real impact, are they even achieving some of the results that 
they were intended to, and in many cases you find out they are 
not, and then you look at some of these agencies, and we have 
had a number of hearings and I appreciate the chairman having 
the hearings that we have had going through various agencies, 
even looking at the President's Executive order, and we have 
seen and it has been pointed out even by some of the people 
implementing it the shortcomings of the President's Executive 
order, how it doesn't really get at the cost of regulation, and 
I read, there was a report that was recently done by the Small 
Business Administration that is titled the Impact of Regulatory 
Costs on Small Firms, and this really looked at how it impacts 
our small businesses, the people that actually create the bulks 
of the jobs in our economy and, you know, I guess it is not 
surprising for those of us that have been in some of these 
hearings but they talk about the cost of federal regulations to 
small businesses is over $1.7 trillion, and how does that break 
down? I broke it down per family. Over $15,000 per family is 
the cost to small businesses of these regulations. And so when 
you look at the regulations and when you look at the impact and 
how it is not only affecting jobs, it is a major impacter that 
is costing us jobs but it also costs every American family over 
$15,000. You say where is the bang for the buck.
    And I want to ask Commissioner Northup, you touched on this 
in your opening testimony. You talked about some of the things 
you have seen, and you have seen businesses go under, actually 
go bankrupt because of some of these regulations, and in many 
cases had actually no health impact, you know, bills that were 
sold and regulations that were sold as helping the health of 
children had actually nothing to do with health and it just had 
to do with some kind of radical policy somebody had that didn't 
help anybody's health, it just made a company go bankrupt. Can 
you expand on some of the things you have seen in terms of how 
these regulations not only impact the businesses that you have 
talked about but also how in many cases there is not even a 
relationship between health and----
    Ms. Northup. Well, I will give you two quickly. One of them 
is the--in the bill that you passed, you had exclusions with 
the lead limit for electrical products, and we have a whole 
cutout for that. You had exclusion for inaccessible parts, and 
we have addressed that. You also had an exclusion for lead 
where not any lead could be absorbed. I assume you meant for 
some things to be included in that, perhaps screws, nuts and 
bolts that are holding a crib together, maybe the handlebars of 
a bike because lead in the handlebars, if you suck on it, 
unlike paint, it is trapped in that metal. You can't suck out 
the lead. But our agency, even though I proposed a de minimis 
standard where if you rub the handlebars and less than a 
molecule could be gotten off that, it couldn't possibly change 
your blood lead content, that absorbability exclusion that you 
wrote in the bill, I intended you meant for it to apply to 
something. And the rest of the commissioners decided no, and so 
basically they have found that even though you wrote in the 
non-absorbability exclusion, that it applies to nothing, that 
there is not one material that it applies to.
    If we had nuts, screws, bolts, things that can't be 
swallowed, things that have small amounts in them that are in 
lead, trapped in--excuse me--trapped in steel, that those 
things would have been excluded from this law. It would have 
made a huge difference.
    Mr. Scalise. Let me ask, and I am running out of time. I 
want to ask just by a show of hands how many people have 
actually read this report that came out just a few months ago 
on the impact to small businesses of the regulations? Can I get 
a show of hands? Not one person on the panel read this. I think 
it should be required reading for all regulators. But if I can 
ask unanimous consent to submit this into the record?
    A final question, if I can ask----
    Mr. Stearns. Before we put it in the record, the minority 
would like to look at it.
    Mr. Scalise. Sure. I will be happy to hand that over. It is 
a report that was published in September of 2010. It cites a 
number of sources but goes into very good detail on sector of 
breakdowns, also differential between large businesses and 
small, how they differentially fall higher even on our small 
businesses.
    Commissioner McDowell, you gave an assessment on the things 
that the FCC did to take into consideration. It was looking at 
both net neutrality and data roaming rules. Did they look into 
and do proper market analysis, in your opinion, to look at the 
impact how that would be on our job creators?
    Mr. McDowell. There was no proper market analysis, no 
finding of market power. In fact, the order, the net neutrality 
order says as much, that there was no market analysis 
conducted.
    Mr. Scalise. See, that is the problem with a lot of these 
regulations that come down. They have dramatic impacts on job 
creators and they cost us jobs, run jobs to other countries, 
and yet it just seems like the regulators kind of go into their 
own shell and are oblivious to the actual impact on our 
economy, so hopefully we can shift that course, and I 
appreciate the chairman for having this hearing and more like 
it to get our economy back on track.
    Thanks. I yield back.
    Mr. Stearns. And the minority has looked at this, so by 
unanimous consent, this will be made part of the record, so I 
thank you for bringing this.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. The gentlelady from Tennessee, Ms. Blackburn, 
is recognized for 5 minutes.
    Mrs. Blackburn. Thank you all for your patience in being 
here.
    Commissioner McDowell, I want to stay with you. On that net 
neutrality order, no market analysis done, no look-ahead at 
what the cost-benefit analysis was going to be. If there had 
been that analysis done, do you believe the commission would 
have gone ahead and issued that order?
    Mr. McDowell. I think so. I think that whole proceeding was 
outcome based, outcome driven.
    Mrs. Blackburn. Chairman Leibowitz, I want to come to you. 
I am concerned about the FTC's food guidelines, food marketing 
guidelines. I have two grandchildren. They are age 3 and age 2. 
And so things of this nature really I pay a lot of attention 
to. You know, you think about the unintended consequences that 
are going to come forward with this, and I think that you may 
see is that an unintended consequence could be seen as 
hampering free speech, harming our economy and not having a 
significant reduction in childhood obesity, and one of the 
things that I have found recently is that the food currently 
sold through the WIC program, which is designed by USDA experts 
to provide a healthy diet for young children, could no longer 
be marketed under this proposal. So you claim these proposed 
food marketing restrictions are voluntary but aren't these 
government standards going to form the basis for NGO attacks? 
And then also talk about what you think--I think that you could 
see there should be consider about shareholder actions, so if 
you will address that quickly, please?
    Mr. Leibowitz. Thank you, Congresswoman. Well, first, as 
you know, this was an obligated requirement. We are not the 
only agency. We do the marketing side. We don't do the science 
side. That is the agriculture department, the CDC and the FDA. 
But it was a Sam Brownback, Tom Harkin obligation in our 
appropriations bill. We are obligated to do what Congress tells 
us to do. It is voluntary. So in that sense, there is no 
enforcement mechanism. We are taking comments from 
stakeholders. And let me just say, and you recognize, as we all 
do, there is an obesity crisis and there are twice as many 
obese children as there were a generation ago, but speaking 
only for myself, you know, I try to take a sort of pragmatic 
approach here. If my kids eat Special K with yogurt in the 
morning, which actually wouldn't quite meet the nutrition 
guidelines, I am pretty happy, because you know what? I think 
that is better than what else they might eat or better than not 
eating anything at all. So my understanding is that within the 
next week--first of all, we will be getting comments and we 
will be reviewing those comments very seriously from 
stakeholders, but within the next week, my understanding is 
that the food marketing companies are going to come up with 
some proposed standardized or uniform guidelines. If they come 
up with guidelines that are good, and I think they will, then 
we ought to take that into account going forward member of the 
working group, and we will.
    Mrs. Blackburn. Let me shift gears with you. I want to go 
to the privacy issues that are out there, and we know that the 
Internet online advertising is really an economic engine in 
this country and the industry is beginning to voluntarily enter 
into some self-regulatory structures when it comes to privacy. 
Do you believe the FTC should impose a top-down technology 
mandate on the Internet governing the privacy issue?
    Mr. Leibowitz. It is the last thing we want to do, no.
    Mrs. Blackburn. OK. Thank you for that. I appreciate that. 
I think that just as I said with Chairman McDowell, if you were 
to look at the net neutrality issue, if there had been a robust 
review of cost-benefit analysis, I think that it would have 
been determined that the net neutrality order, especially 
paragraph 84, was going to be detrimental to our economy, and I 
think that a heavy hand on the privacy issue would likewise.
    I have got less than a minute. I want to ask each of you, 
just a show of hands, how many of you have read the Executive 
order that we are discussing and have been through the process 
of reviewing that? OK. So all of you have. All right. How many 
of you disagree with any part of that order? Is there any part 
of that order that you have disagreement with? Yes, sir, go 
ahead.
    Mr. Kovacic. I don't think--I think a number of the 
provisions aren't very well specified. I think it could have 
benefited from a much fuller discussion about how it intended 
specific tradeoffs that are implicit in the order were to be 
made. There has been subsequent guidance, subsequent 
commentary. It is a nice start.
    Mrs. Blackburn. OK. Anyone else? Commissioner?
    Mr. McDowell. I would agree. I think it could be broader 
and more comprehensive and more aggressive.
    Mrs. Blackburn. OK. Any other addition to that? Thank you 
all for your patience. Yield back.
    Mr. Stearns. The gentlelady's time is expired. The 
gentleman from Virginia, Mr. Griffith, is recognized for 5 
minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Commissioner McDowell, it is nice for me to be able to say 
that in a formal setting in my new role. When I look at the 
FCC's merger review process under Republican and Democrat 
Administrations, I see a process that appears to be broken. The 
XM and Sirius merger took way too long. The Comcast-NBC merger 
took way too long. There is simply too much discretion for the 
commission to halt the timeline for the review of the transfer 
of control of licenses in an expeditious manner. Is there 
something we can to provide applicants with certainty regarding 
the timing of the FCC review process?
    Mr. McDowell. And Congressman Griffith, it feels good to 
say that as well, my first time saying that publicly, so 
congratulations. Yes, the FCC has an 180-day shot clock that is 
honored more in the breach that in the rule to get mergers 
done. I read yesterday also that the Assistant Attorney General 
for Antitrust, Christine Varney, is stepping down and there is 
a big merger, the AT&T and T-Mobile merger, that needs a fair, 
thorough and expeditious review, and I would hope that her 
stepping down doesn't delay that. I think we could get that 
done by the end of the year in a fair, thorough manner.
    But I have been in a dialog with Chairman Genachowski about 
making sure that we move as quickly as we can on our merger 
review process. I think there are a lot of problems with how 
the commission under both Republicans and Democrats have 
conducted themselves in terms of taking too long or imposing 
conditions that have absolutely nothing to do with the 
substance of the merger itself. So Congress could look at that. 
There could be a statutory provision certainly, but the best 
thing to do would be for the FCC to honor its own 180-day shot 
clock.
    Mr. Leibowitz. So Congressman, may I just add something?
    Mr. Griffith. Yes, please.
    Mr. Leibowitz. We do from time to time work with the FCC on 
merger reviews, and I think from our perspective, you don't 
deserve a particular outcome but you do deserve sort of a 
speedy resolution. Sometimes it takes a little longer with 
documents, but that is what you deserve, so I think that is a 
reasonable point.
    Mr. McDowell. And I agree.
    Mr. Griffith. And I think most of us would agree with that 
as well.
    Commissioner Northup, do you think Congressman Waxman's 
proposed legislation will actually ease any burdens under the 
Consumer Product Safety Improvement Act?
    Ms. Northup. No, I don't think it goes nearly far enough, 
and in fact, he has proposed previously a functional purpose 
exemption which I have to say is like picking winners and 
losers. If you think a part--first of all, it says it can't be 
harmful to children and then it says if it serves a function, 
for example, on a bicycle and is necessary, then we can exempt 
it. Well, if it doesn't harm a child, why do we have to then 
exempt it in part by part? It means that big companies that 
have lots of product or big expensive products can afford to 
get a functional exemption because it is a very complicated 
petition you would have to file with us. They can afford to 
file the petition and all the supporting work and everything 
and then we can exempt them but for small needs for these same 
exact materials that do not harm a child, I don't think that, 
you know, they probably would be able to afford either the wait 
for us to act on it or the cost to put the petition together. 
So that in particular to me is, you know, not a good way to go 
about easing this. Making the absorbability a useful exception 
would make a huge difference.
    Mr. Griffith. Did you want to add onto that?
    Mr. Adler. Well, I wanted to disagree.
    Mr. Griffith. Somebody else may give you time to do that 
but let me--I have got one more thing I want to say and if I 
could take back my time because I am running out of time. I did 
hear from several of you as I was listening to the testimony 
that you all, at least a couple of you, made mention that 
perhaps the legislation created more of the problem than the 
agency created and that we should be careful when we craft 
legislation that that may be costing jobs as well as the 
regulations costing jobs that are ultimately awarded, and while 
in some cases it may be an agency that is pushing the envelope 
and some cases it is just the agency following exactly what 
Congress told them to do, and I do appreciate that. I yield 
back my time.
    Mr. Stearns. The gentleman yields back the balance of his 
time. The gentleman from Colorado, Mr. Gardner, is recognized 
for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman, and thank you for 
your time and testimony today.
    Chairman Wellinghoff, in developing energy policies such as 
policies to support the integration of renewables, demand 
response or the deployment of smart grid technologies, does 
FERC evaluate the impact that increased energy price, evaluate 
the impact that increased energy prices resulting from the 
implementation of these policies will have on jobs?
    Mr. Wellinghoff. The policies that we implement aren't 
directed to specific technologies but rather directed to the 
integration of all technologies into competitive marketplace. 
We believe, and I think my colleague, Commissioner Moeller, I 
think would agree, we believe that competition is good for 
consumers and so to the extent that we can maximize 
competition, we can increase the types of resources that are 
available in the market, whether they be coal or nuclear or 
natural gas or solar, geothermal, hydroelectric or any of these 
resources, and also to the extent that we can do things like 
incorporate in demand response and energy efficiency which 
usually at the lowest cost resources, the whole mix of those 
resources in a competitive environment allowed to compete 
fairly in that competitive environment will in fact produce the 
lowest cost for consumers.
    Mr. Gardner. So do you do an analysis that these policies, 
the impact they will have on jobs?
    Mr. Wellinghoff. We don't a specific impact on----
    Mr. Gardner. So you don't do an analysis then?
    Mr. Wellinghoff. We don't do a specific analysis.
    Mr. Gardner. A specific analysis on jobs? You do not do a 
specific analysis on jobs?
    Mr. Wellinghoff. We don't, but we do believe that----
    Mr. Gardner. So in terms of----
    Mr. Wellinghoff. Excuse me, if I could finish. We do 
believe----
    Mr. Gardner. Actually, reclaiming my time. In terms of the 
Executive order, so you do not believe that the Executive 
order, which I think you said you believe in the spirit of, you 
do not believe that it requires you to look at jobs? I 
understand that you are exempted from it but you believe, you 
said you want to follow the spirit of it. Do you think you 
ought to be concerned about jobs and looking at the job impact?
    Mr. Wellinghoff. I think we are always concerned about jobs 
to the extent that we can drive down prices in a competitive 
atmosphere and allow for the economy to have access to low-cost 
power. To the extent that we can provide low-cost competitive 
power within the economy, we are going to create jobs and we 
are going to maintain jobs.
    Mr. Gardner. But you don't do an analysis to know that or 
not?
    Mr. Wellinghoff. My basic economics, what I know if basic 
economics, tells me that if we can lower costs for electricity, 
we are going to have the ability to increase jobs.
    Mr. Gardner. Would you commit today to start beginning a 
jobs analysis when you make decisions?
    Mr. Wellinghoff. I certainly have no problem looking at 
jobs. I believe, for example----
    Mr. Gardner. But shouldn't that be our----
    Mr. Wellinghoff [continuing]. Your colleague from 
Louisiana, for example, was talking about this issue with 
respect to jobs and regarding that, Entergy, which is one of 
the utilities in Louisiana, has chosen to join a competitive 
market, Myso. An analysis was done that showed by joining that 
competitive market, something over $700 million could be saved. 
I think there is a lot of money if you can take that money and 
save it for Louisiana consumers and others throughout the 
region. It wasn't just Louisiana but spread out the region. 
That additional money in the pockets of consumers is going to 
help them create jobs and invest back in the economy in ways 
that more jobs will be created. So I think that is a very valid 
example of the types of things that FERC is doing to the 
regulations and the competitive structures that we are putting 
in place to ensure that in fact we can create more jobs.
    Mr. Gardner. Well, and then so what you are telling the 
committee then, and I believe what you just said, though, when 
it comes to developing energy policies like integration of 
renewables, demand response or the deployment or smart grid 
technologies, then you are saying today that you will do a jobs 
analysis on these decisions?
    Mr. Wellinghoff. I am saying that to the extent that it is 
possible to do so, we certainly will in fact look at the impact 
on jobs.
    Mr. Gardner. I think we ought to be looking at the impact 
on jobs no matter what we do so that we have an idea of----
    Mr. Wellinghoff. I absolutely agree.
    Mr. Gardner. And so Commissioner Moeller, do you care to 
comment on this?
    Mr. Moeller. I generally want to associate my remarks with 
the chairman because we are believers in competitive wholesale 
markets and those ultimately are what benefit consumers the 
most and allow more resources. I think we should always be 
cognizant of the employment impact we have on rising energy 
prices because it can be substantial.
    Mr. Gardner. Thank you, Commissioner Moeller.
    I see my time is expired and I yield back.
    Mr. Stearns. I thank the gentleman for his questions. I 
think we are completed with our first round. I think the 
ranking member and I have talked that we are going to ask a few 
more questions and then wrap up.
    I don't think there has ever in my experience been such a 
distinguished group of people that could make an impact on 
deregulation in America as you folks today so we are here with 
a certain humility in asking you what is the best way for us to 
move forward. As Mr. Scalise pointed out with that Small 
Business Administration report, had every U.S. household paid 
an equal share of the federal regulatory burden, each household 
would pay $15,586. That was in 2008. And when you compare that 
with what we spent for health care costs in 2008, the federal 
regulatory burden exceeded by 50 percent the private spending 
on health care, which equaled $10,500. So it is within your 
power to deregulate and to get rid of burdensome regulations, 
which would spur the economy. So we are not talking about 
something insignificant.
    So I guess the larger question is, we passed in 1980 the 
Regulatory Flexibility Act. Obviously that is not applicable 
today and it is not working, so the question is for you is sort 
of a wrap-up understanding, the President reached out with his 
Executive order that did not apply to the independent agencies 
in some of your opinions. We think Cass Sunstein's letter did 
imply but we don't seem to have you jumping to the forefront to 
try to deregulate. Should Congress should either statutes or 
legislation provide, one, either more flexibility to you or 
should we update the Regulatory Flexibility Act of 1980? So we 
are reaching out for you to tell us, one, should we do some of 
the things I mentioned, and secondly, would you be willing to 
help us in terms of providing us documentation on what we 
should do? I will start with Commissioner Adler.
    Mr. Adler. Mr. Chairman, the devil is always in the 
details. I would be delighted to look at anything you drafted 
and to respond to it.
    Mr. Stearns. So you think that we should take the 
Regulatory Flexibility Act of 1980 and update it in Congress?
    Mr. Adler. Actually, I am probably a bigger fan of the 
Regulatory Flexibility Act than some folks here. As I read it, 
I think it is a fairly useful tool, especially in terms of what 
we do when we are trying to regulate and we are looking 
particularly at the impact on small business. That is actually 
something that both Commissioner Northup and I agree on is that 
we do have to worry about the impact on small business.
    Mr. Stearns. Commissioner Northup?
    Ms. Northup. Yes, but unfortunately, it has no teeth in it. 
No matter what the regulatory analysis is, if you decide in our 
agency that you should go ahead and regulate, it almost has no 
impact on what we do. So unless we are required to justify the 
cost with the benefit, adding that to it, I think that would be 
an important improvement, but other than that, it is a box we 
check and it doesn't have an effect.
    Mr. Stearns. Just for your information, I checked the 
Consumer Product Safety Improvement Act. Everybody in Congress 
voted for it under the Bush Administration except one, and that 
was Ron Paul. So you probably would have been like most----
    Ms. Northup. I am sure I would have, and, like I said, when 
I first read it before my confirmation, I was really very 
excited about it.
    Mr. Stearns. Commissioner McDowell?
    Mr. McDowell. I think statutory action is the best way to 
sort of cut through this Gordian knot of regulation and 
statutory provisions that have built up over the years and so I 
would be happy to work with you on something like that.
    Mr. Stearns. Mr. Wellinghoff, Commissioner, Chairman?
    Mr. Wellinghoff. Yes, Chairman Stearns. As I indicated to 
Congressman Barton, I don't have any specific recommendation 
for you. However, certainly anything that the committee decided 
to draft, we would be happy to work with you in any way.
    Mr. Stearns. Commissioner Moeller?
    Mr. Moeller. Mr. Chairman, I generally think a government 
of both legislative and regulatory bodies should periodically 
review legislation and regulations, so if that is in order, I 
would certainly endorse that. And as our chairman said, I had a 
specific example about hydropower re-licensing that I would be 
happy to provide to you. It would be quite complicated, given 
the number of federal laws involved, but any help that we can 
provide, we would be happy to do so.
    Mr. Stearns. Chairman Leibowitz?
    Mr. Leibowitz. I am also happy to work with you, although 
as my colleague, Commissioner Kovacic, pointed out, I think 
only four rules that we have actually are within reg flex but 
we do do, you know, reg reviews and rule reviews. In fact, we 
are in the middle of 23 of them now, so I will defer to my 
colleague, Mr. Kovacic.
    Mr. Kovacic. Mr. Chairman, if I could just underscore a 
couple of themes that have come up already today. One, the 
enormous value of having committees and the Congress all assess 
before the fact the likely impact in regulation writing of 
legislation adopted. Second, the custom you are developing in 
this hearing of making a regular question for all of us how 
much are you spending in each budget cycle to look at 
evaluation and the assessment of effects, not just to measure 
accomplishment by activity itself but looking at actual impacts 
and ask us how much are you setting aside in each budget cycle 
to do this. And last, we do an enormous amount of work as 
advocates for competition and better consumer protection 
techniques before the government agencies, before our State 
governments, and this perhaps provides specific suggestions 
that we would be happy to share with you about how adjustments 
in national and State legislation could improve productivity 
and improve economic performance.
    Mr. Stearns. I am going to yield to the ranking member, but 
I think each of you have indicated you will help us. You are 
saying something should be done. So I am going to presuppose 
that all of you will submit to us some specifics that we could 
incorporate and still working as the Energy and Commerce 
Committee towards this.
    The gentlelady from Colorado.
    Ms. DeGette. Thank you, Mr. Chairman, and I agree. I had 
asked them for that information earlier, and I really look 
forward to working with all of you because as we all said--no, 
actually it was one of you who said the devil is in the details 
of these regulations. You can say we are all for regulatory 
reform. We also probably need to streamline some of the 
statutes because a lot of the regulations flow from the 
statutes and so I think we need to look at all of those.
    I have been sitting up here thinking about this lead 
standard with the CPSIA. I was on the conference committee with 
Chairman Barton and others, and Mr. Chairman, you are exactly 
right. There was only one no vote on that bill in the House, 
and Chairman Barton and Ranking Member Waxman and a bunch of 
us, and even the other body sat around for a long time trying 
to figure out what to do with this lead standard. I remember it 
so clearly, and when we drafted the new lead standards, what we 
decided was, was that determining total lead content was 
preferable to risk assessment because what happened with risk 
assessment is, it was dependent on a product-by-product 
determination which you couldn't do because of the large number 
of children's products in the marketplace, and so in addition, 
although with most chemicals a traditional risk-based model can 
work, if you have persistent bioaccumulative toxins like lead, 
science has demonstrated that traditional models are 
inappropriate and exposures inevitable, and we spent a lot of 
time in that conference committee talking about what we do 
about bikes and ATVs and things like that. So it is not like 
Congress never talked about these things.
    I think what we need to do now that we have passed this--
and it wasn't one of these provisions slipped in in the middle 
of the night either. We really, really hammered this out on a 
bipartisan, bicameral basis. So now I think what we need to do, 
given the experience that the CPSC has had in trying to draft 
the regulations, is sit down and figure out what about that new 
lead standard might work, what might not work, and this is what 
led to this effort by then-Chairman Waxman last year to develop 
this legislation everybody has been talking about. The staff 
undertook a consultative shareholder process with small 
business and others to try to figure out what we do about the 
ATVs, the bicycles, the tee shirts with the blue ink and things 
like that. He did release a consensus discussion draft of a 
document to try to figure out how to address these concerns 
because we need to do it but unfortunately your side of the 
aisle, Mr. Chairman, rejected that.
    And so we can sit down and talk about it. We did do that. 
We did that when the Republicans were in the majority in the 
Congress and when we had President Bush in the White House, but 
we can't devolve to the stage where we say oK, we are the 
majority, we are just going to do it our way and to heck with 
you, and vice versa. We really need to work together on how to 
make this work for small businesses and most importantly for 
consumers. So as someone who has fortunately or unfortunately 
been in those trenches, sometimes these regulations actually 
came from scientific basis and it is going to take some really 
hard work to fix it. I think every witness here would agree 
with that on some of these harder regulations that might be 
more burdensome.
    And just one last thing, Mr. Chairman. Ms. Christensen was 
asking a question about Chairman Genachowski's efforts to 
eliminate outdated and unnecessary regulations at the FCC, and 
he had sent a letter to the subcommittee, to you and to me, 
outlining the efforts which noted that they eliminated 50 
outdated regulations and identified 25 sets of data collection 
that are no longer necessary. So Mr. Chairman, I would like to 
ask unanimous consent to put that letter into the record.
    Mr. Stearns. Will the gentlelady let us take a few moments 
to review it?
    Ms. DeGette. Yes.
    Mr. Stearns. What is the date of this? I don't see the date 
on this.
    Ms. DeGette. Today.
    Mr. Stearns. Oh, it is today's date? OK. I would say at 
this point there is some concern that is really perhaps some of 
it is applicable but there is others that is concern on this 
committee we talked about earlier, the fact that Chairman 
Genachowski was invited as chairman to come up. He said he 
could not come, and so it is customary if he doesn't come, we 
do not respectfully take his statement and make it part of the 
record since he didn't show, and we are a little concerned that 
this might in fact be part and parcel of his opening statement. 
So I think at this----
    Ms. DeGette. Mr. Chairman, I would just point out, it is 
not an opening statement, it is a letter to us, and we 
generally----
    Mr. Stearns. I think the staff is interpreting it as an 
opening statement and so I am just saying at this point we are 
not able to rule in favor of that and so I think we are just 
going to hold off and not put it part of the record.
    At any rate, I will close by saying that civilizations rise 
and fall because of burdensome regulation. It is in your hands, 
you people, to do as much as you can to make the small 
businessperson succeed so that we can have innovation in this 
country.
    I thank you for your time, and the subcommittee is 
adjourned.
    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                 <all>

</pre></body></html>
